<html>
<title> - RESPONDING TO RANSOMWARE: EXPLORING POLICY SOLUTIONS TO A CYBERSECURITY CRISIS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]







 
RESPONDING TO RANSOMWARE: EXPLORING POLICY SOLUTIONS TO A CYBERSECURITY 
                                 CRISIS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                       PROTECTION, AND INNOVATION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2021

                               __________

                           Serial No. 117-12

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
 44-930 PDF               WASHINGTON : 2021                              
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                                 ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                 Yvette D. Clarke, New York, Chairwoman
Sheila Jackson Lee, Texas            Andrew R. Garbarino, New York, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Ralph Norman, South Carolina
Kathleen M. Rice, New York           Diana Harshbarger, Tennessee
Ritchie Torres, New York             Andrew Clyde, Georgia
Bennie G. Thompson, Mississippi (ex  Jake LaTurner, Kansas
    officio)                         John Katko, New York (ex officio)
               Moira Bergin, Subcommittee Staff Director
          Austin Agrella, Minority Subcommittee Staff Director
                   Mariah Harding, Subcommittee Clerk
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Andrew R. Garbarino, a Representative in Congress 
  From the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     8

                               Witnesses

Major General John A. Davis, U.S. Army (Retired), Vice President, 
  Public Sector, Palo Alto Networks:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Ms. Megan H. Stifel, Executive Director, Americas, Global Cyber 
  Alliance:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Denis Goulet, Commissioner, Department of Information 
  Technology, and Chief Information Officer, State of New 
  Hampshire, and President, National Association of Chief 
  Information Officers, Testifying on Behalf of the National 
  Association of Chief Information Officers:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. Christopher C. Krebs, Private Citizen, Former Director of the 
  Cybersecurity and Infrastructure Security Agency, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28


RESPONDING TO RANSOMWARE: EXPLORING POLICY SOLUTIONS TO A CYBERSECURITY 
                                 CRISIS

                              ----------                              


                         Wednesday, May 5, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Cybersecurity, 
                                 Infrastructure Protection,
                                            and Innovation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., via 
Webex, Hon. Yvette Clarke [Chairwoman of the Subcommittee] 
presiding.
    Present: Representatives Clarke, Jackson Lee, Langevin, 
Rice, Torres, Garbarino, Norman, Harshbarger, and Clyde.
    Also present: Representative Katko.
    Chairwoman Clarke. The Subcommittee on Cybersecurity, 
Infrastructure Protection, and Innovation will come to order. 
Without objection, the Chair is authorized to declare the 
subcommittee--oops, excuse me. Let me move forward.
    Good afternoon and thank you to our witnesses for joining 
us today to discuss how we can respond to the ransomware 
crisis.
    You know, I first chaired this subcommittee over 10 years 
ago. While ransomware is not a new problem, the number of cases 
and the financial impact has skyrocketed since then. That is 
why I wanted to focus on ransomware at our first subcommittee 
hearing this year. We must understand the problem we are 
facing, learn more about how the Federal Government should 
respond, and do something.
    Estimates show that ransomware victims paid $350 million in 
ransom payments last year. Among those victims were 2,400 U.S.-
based governments, health care facilities, and schools. As the 
COVID-19 pandemic forced governments and businesses to shift to 
remote work, thousands found themselves locked out of their 
networks as cyber criminals demanded ransom payments. These 
attacks are more than a mere inconvenience. They are a National 
security threat. It is time for bold action rooted in robust 
partnerships between the Federal Government and its State, 
local, and private-sector partners.
    In the coming days, I will introduce the State and Local 
Cybersecurity Improvement Act, which will authorize $500 
million in annual grants to State, local, territorial, and 
Tribal governments to strengthen their cybersecurity. As the 
ever-increasing number of ransomware attacks on State and local 
governments demonstrates, adequate treatment in cybersecurity 
has been lacking and more resources are needed.
    Just last week we saw some ransomware attacks that released 
sensitive law enforcement information from police departments 
in Washington, DC, and Presque Isle, Maine, showing that 
cities, large and small, are vulnerable to this type of cyber 
crime. This legislation would ensure funding is available while 
insisting State and local governments step up to prioritize 
cybersecurity in their own budgets.
    I am proud of the bipartisan support this bill has received 
on this committee and look forward to working with Ranking 
Member Garbarino along with Chairman Thompson and Ranking 
Member Katko to get this critical bill enacted. I hope this 
hearing will give us an opportunity to learn more about the 
challenges State chief information officers face under current 
funding constraints and how they would be able to use 
additional resources to strengthen their defenses to 
ransomware.
    While State and local governments are some of the most 
notable victims of ransomware, this crisis affects many private 
businesses in the United States and around the world. 
Combatting this threat will require coordination between the 
public and private sectors and all levels of government.
    The Ransomware Task Force report released last week 
provided 48 recommendations on what Government and industry can 
do to address this crisis in the coming months and years. I am 
excited to have 2 of those co-chairs of the task force here 
today to share more information on the recommendations.
    As Secretary Mayorkas has made clear in announcing that 
addressing ransomware would be the first of DHS's 60-day sprint 
on pressing cybersecurity challenges, responding to ransomware 
is a priority for his administration. It is definitely a 
priority for this committee and many in Congress.
    So, I hope that this hearing will help further the 
conversation on how the private sector, Congress, the Executive 
branch, and State and local governments can collaborate to 
address this crisis head-on. In particular, I am interested to 
learn how other committee priorities, including developing a 
cyber incident reporting framework, could improve our 
understanding of ransomware trends and how to defend against 
such attacks.
    Relatedly, I am interested to hear how CISA can play an 
important role in information sharing and coordinating this 
response. As the agency that works closely with governments at 
all levels and the private sector on cybersecurity matters, I 
know it will have a significant role on this issue going 
forward.
    [The statement of Chairwoman Clarke follows:]
                Statement of Chairwoman Yvette D. Clarke
                              May 5, 2021
    Good afternoon and thank you to our witnesses for joining us today 
to discuss how we can respond to the ransomware crisis.
    I first chaired this subcommittee over 10 years ago. While 
ransomware is not a new problem, the number of cases and the financial 
impact has skyrocketed since then. That's why I wanted to focus on 
ransomware at our first subcommittee hearing of the year. We must 
understand the problem we're facing and learn more about how the 
Federal Government should respond.
    Estimates show that ransomware victims paid $350 million in ransom 
payments last year. Among those victims were 2,400 U.S.-based 
governments, health care facilities, and schools. As the COVID-19 
pandemic forced governments and businesses to shift to remote work, 
thousands found themselves locked out of their networks as cyber 
criminals demanded ransom payments. These attacks are more than a mere 
inconvenience--they are a National security threat. It is time for bold 
action rooted in robust partnerships between the Federal Government and 
its State, local, and private-sector partners.
    In the coming days, I will introduce the State and Local 
Cybersecurity Improvement Act, which would authorize $500 million in 
annual grants to State, local, territorial, and Tribal governments to 
strengthen their cybersecurity. As the ever-increasing number of 
ransomware attacks on State and local governments demonstrates, 
adequate investment in cybersecurity has been lacking, and more 
resources are needed. Just last week, we saw ransomware attacks that 
released sensitive law enforcement information from police departments 
in Washington, DC and Presque Isle, Maine, showing that cities large 
and small are vulnerable to this kind of cyber crime.
    This legislation would ensure funding is available, while insisting 
State and local governments step up to prioritize cybersecurity in 
their own budgets. I am proud of the bipartisan support this bill has 
received on this committee and look forward to working with Ranking 
Member Garbarino, along with Chairman Thompson and Ranking Member 
Katko, to get this critical bill enacted. I hope this hearing will give 
us an opportunity to learn more about the challenges State chief 
information officers face under current funding constraints and how 
they would be able to use additional resources to strengthen their 
defenses to ransomware.
    While State and local governments are some of the most notable 
victims of ransomware, this crisis affects many private businesses in 
the United States and around the world. Combatting this threat will 
require coordination between the public and private sector and all 
levels of government. The Ransomware Task Force Report released last 
week provided 48 recommendations on what Government and industry can do 
to address this crisis in the coming months and years. I am excited to 
have 2 of the co-chairs of the Task Force here today to share more 
information on the recommendations.
    As Secretary Mayorkas has made clear in announcing that addressing 
ransomware would be the first of DHS's 60-day sprints on pressing 
cybersecurity challenges, responding to ransomware is a priority for 
this administration. And it is definitely a priority for this committee 
and many in Congress. So, I hope that this hearing will help further 
the conversation on how the private sector, Congress, the Executive 
branch, and State and local governments can collaborate to address this 
crisis. In particular, I am interested to learn how other committee 
priorities--including developing a cyber incident reporting framework--
could improve our understanding of ransomware trends and how to defend 
against such attacks. Relatedly, I am interested to hear how CISA can 
play an important role in information sharing and coordinating this 
response. As the agency that works closely with governments at all 
levels and the private sector on cybersecurity matters, I know it will 
have a significant role on this issue going forward.
    With that, I would like to again thank the witnesses for being 
here.

    Chairwoman Clarke. With that, I would like to again thank 
the witnesses for being here. The Chair now recognizes the 
Ranking Member of the subcommittee, Mr. Garbarino from New 
York, for an opening statement.
    Mr. Garbarino. Thank you, Chairwoman. Thank you very much. 
Thank you to the witnesses for being here today. This is a very 
important issue.
    The global cost of ransomware has risen to $20 billion a 
year. Over the past several years ransomware attacks have 
increased at an alarming rate. Attacks like NotPetya and 
WannaCry have had devastating impacts to critical sectors 
across the globe. Just a few months ago, both the Bay Shore and 
Lindenhurst School Districts on Long Island in my district were 
hit with cyber attacks.
    I am determined to work with hospitals, schools, and small 
businesses in New York's Second District and across the country 
to improve their cybersecurity posture in the wake of 
increasing threats. I believe it now more important than ever 
to work with agencies like CISA, the Secret Service, and the 
Treasury Department to combat malicious cyber actors from 
targeting our struggling small businesses, health care 
institutions, and State and local governments. We must think of 
new, innovative ways to interrupt cyber criminals' ability to 
see this as a financially viable way of doing business.
    It should come as a surprise to no one in this hearing that 
these ransomware attacks have devastating real-world 
consequences for Americans. Every minute that a hospital goes 
down is a minute of missed critical care. The same goes for 
almost every industry. We must work to put a stop to this. We 
need to double down on ensuring State and local entities and 
small businesses are prepared and adopt basic cybersecurity 
best practices to mitigate cyber risks. These practices can 
include two-factor authentication, strong passwords, retaining 
backups, developing a response plan, and updating software.
    CISA, in partnership with the Multi-State Information 
Sharing and Analysis Center, also covers several no-cost 
services across the Nation that should be leveraged by State 
and locals and the private sector. This includes the Joint 
Ransomware Guide developed both by CISA and the MS-ISAC that 
includes industry best practices and serves as consolidated 
resources for SLTT and the private sector.
    I am a proud original cosponsor of the Chairwoman's State 
and Local Cybersecurity Improvement Act. While we all can agree 
more resources for our State and local governments are 
necessary, we must also ensure these funds are spent 
responsibly and effectuate meaningful impacts on risk 
reduction.
    This important bill is a tremendous step forward in our 
fight, but we cannot stop there. While somewhere near only 2 
percent of all cryptocurrency payments are nefarious, we know 
that most, if not all, ransomware payments utilize the 
anonymity of cryptocurrencies. We must adopt an all-of-the-
above approach to dealing with this scourge. There is no single 
silver bullet.
    I look forward to hearing from our witnesses today about 
the innovative solutions Congress should consider as we work to 
degrade and ultimately eliminate the viability of ransomware.
    Thank you, Madam Chairwoman, for bringing this important 
issue before us today. I yield back.
    [The statement of Ranking Member Garbarino follows:]
            Statement of Ranking Member Andrew R. Garbarino
    The global cost of ransomware has risen to $20 billion a year.
    Over the past several years ransomware attacks have increased at an 
alarming rate. Attacks like NotPetya and WannaCry have had devastating 
impacts to critical sectors across the globe.
    Just a few months ago, both the Bay Shore and Lindenhurst school 
districts on Long Island were hit with cyber attacks. I am determined 
to work with hospitals, schools, and small businesses in New York's 2d 
district and across the country to improve their cybersecurity posture 
in the wake of increasing threats.
    I believe it is now more important than ever to work with agencies 
like CISA, the Secret Service, and the Treasury Department to combat 
malicious cyber actors from targeting our struggling small businesses, 
health care institutions, and State and local governments.
    We must think of new innovative ways to interrupt cyber criminals' 
ability to see this as financially viable way of doing business.
    It should come as a surprise to no one in this hearing that these 
ransomware attacks have devastating real-world consequences for 
Americans. Every minute that a hospital goes down is a minute of missed 
critical care. The same goes for almost every industry.
    We must work to put a stop to this.
    We need to double down on ensuring State and local entities and 
small businesses are prepared and adopt basic cybersecurity best 
practices to mitigate cyber risks. These practices can include: Two-
factor authentication, strong passwords, retaining backups, developing 
a response plan, and updating software.
    CISA, in partnership with the Multi-State Information Sharing and 
Analysis Center (MS-ISAC), also offers several no-cost services across 
the Nation that should be leveraged by State and locals and the private 
sector. This includes the Joint Ransomware Guide, developed by both 
CISA and the MS-ISAC that includes industry best practices and serves 
as a consolidated resource for SLTT and the private sector.
    I am a proud original cosponsor of the Chairwoman's State and Local 
Cybersecurity Improvement Act. While we all can agree more resources 
for our State and local governments are necessary, we must also ensure 
these funds are spent responsibly, and effectuate meaningful impacts on 
risk reduction. This important bill is a tremendous step forward in our 
fight, but we can't stop there.
    While somewhere near only 2 percent of all cryptocurrency payments 
are nefarious, we know that most, if not all ransomware payments 
utilize the anonymity of cryptocurrencies.
    We must adopt an ``all of the above'' approach to dealing with this 
scourge. There is no single silver bullet.
    I look forward to hearing from our witnesses today about the 
innovative solutions Congress should consider as we work to degrade, 
and ultimately eliminate the viability of ransomware.
    Thank you, Madam Chair, for bringing this important issue before us 
today.

    Chairwoman Clarke. I thank the Ranking Member. Members are 
also reminded that the committees will operate according to the 
guideline laid out by the Chairman and Ranking Member in their 
February 3 colloquy regarding remote procedures.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentlemen from New York, another gentleman from 
New York, Mr. Katko, for an opening statement.
    Mr. Katko. Thank you, Chairwoman, from the great State of 
New York. I appreciate it. Ranking Member Garbarino, thank you 
for holding this important hearing.
    Mr. Krebs, it is always good to see you. It has been 24 
hours since we were in a meeting together, so nice to see you 
again.
    In 2020, we witnessed one of the worst years on record for 
ransomware attacks and it could not have come at a more tenuous 
time for our society. With the onset of the pandemic, the 
Nation drastically shifted to remote work and services. While 
this yielded great benefits, it also provided a more expansive 
attack surface for cyber criminals. As COVID-19 cases 
increased, so did the number of devastating ransomware attacks. 
This trend represents an acceleration of what has impacted 
communities all across America for the past several years. In 
my district, for example, the Syracuse City School District and 
Onondaga County Library System previously fell victim to 
ransomware attacks that shut down their systems and halted the 
critical services that they provide.
    I cannot emphasize this strongly enough: State and local 
governments and small businesses should leverage free services 
that CISA offers to help prevent and mitigate the scourge of 
ransomware attacks. CISA's guidance and services can help SLTT 
and small businesses take meaningful steps to increase the 
cyber-secured posture of their networks. These preventative 
actions can make the difference between a devastating cyber 
event and business as usual.
    We also must ensure CISA has the resources and capabilities 
to go toe-to-toe with sophisticated cyber criminals. CISA has 
made great strides to keep pace with the evolving threat, but 
there is must more that needs to be done.
    The Fiscal Year 2021 National Defense Authorization Act 
provided important authorities that I advocated for that would 
ultimately allow CISA to rise to the challenge. But these must 
be met with resources to implement them. As I have continued to 
say, Congress needs to put CISA on a path to being a $5 billion 
agency.
    I have been pleased to see CISA leveraging some of its 
newly established authorities, including State cybersecurity 
coordinators. These coordinators will be CISA's main point of 
contact embedded in each State government and be particularly 
important to ensuring it has a strong understanding of the 
needs of our local governments.
    Additionally, I am happy to see CISA is fully leveraging 
its new authority provided by the DOTGOV Act to administer the 
top-level domain to provide secure and trustworthy dot-gov 
domains to State and local governments at no cost. CISA should 
also be doubling down on its efforts to stand up the Joint 
Cyber Planning Office to widen and streamline channels of 
communication between the Federal Government and industry.
    We must think outside the box when it comes to slowing the 
rapid expansion of ransomware. Equipping State and local 
governments with the resources to bolster their defenses is an 
important first step. I am looking forward to working with 
Subcommittee Chairwoman Clarke and Chairman Thompson on the 
State and Local Cybersecurity Improvement Act to achieve that 
goal, but we can't stop there.
    I look forward to hearing testimony from our witnesses on 
approaches that Congress should consider as we strive to tackle 
this problem once and for all. Recommendations from the 
Ransomware Task Force are a great place to start. But let us 
keep the pedal to the metal because we have a long way to go.
    With that, Madam Chairwoman, I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you, Chairwoman Clarke, and Ranking Member Garbarino for 
holding this important hearing.
    In 2020 we witnessed one of the worst years on record for 
ransomware attacks, and it could not have come at a more tenuous time 
for our society. With the onset of the pandemic, the Nation drastically 
shifted to remote work and services. While this yielded great benefits, 
it also provided a more expansive attack surface for cyber criminals. 
As COVID-19 cases increased, so did the number of devastating 
ransomware attacks. This trend represents an acceleration of what has 
impacted communities all across America for the past several years. In 
my district, the Syracuse City School District and Onondaga County 
Library System previously fell victim to ransomware attacks that shut 
down their systems and halted the critical services they provide.
    I cannot emphasize this strongly enough: State and local 
governments and small businesses should leverage the free services the 
Cybersecurity and Infrastructure Security Agency (CISA) offers to help 
prevent and mitigate the scourge of ransomware attacks. CISA's guidance 
and services can help SLTT, and small businesses take meaningful steps 
to increase the cybersecurity posture of their networks. These left-of-
attack preventative actions can make the difference between a 
devastating cyber event and business as usual.
    We also must ensure CISA has the resources and capabilities to go 
toe-to-toe with sophisticated cyber criminals. CISA has made strides to 
keep pace with the evolving threat, but there's more to be done. The 
Fiscal Year 2021 National Defense Authorization Act provided important 
authorities that I advocated for that will ultimately allow CISA to 
rise to the challenge, but these must be met with resources to 
implement them. As I have continued to say, Congress needs to put CISA 
on a path to being a $5 billion agency.
    I have been pleased to see CISA leveraging some of its newly-
established authorities including State cybersecurity coordinators. 
These coordinators will be CISA's main point of contact embedded in 
each State government and be critically important to ensuring it has a 
strong understanding of the needs of our State and local governments. 
Additionally, I am happy to see CISA is fully leveraging its new 
authority provided by the DOTGOV Act to administer the top-level domain 
to provide secure and trustworthy .gov domains to State and local 
governments at no cost. CISA should also be doubling down on its 
efforts to stand up the Joint Cyber Planning Office to widen and 
streamline channels of communication between the Federal Government and 
industry.
    We must think outside the box when it comes to slowing the rapid 
expansion of ransomware. Equipping State and local governments with the 
resources to bolster their defenses is an important step, and I'm 
looking forward to working with Subcommittee Chairwoman Clarke and 
Chairman Thompson on the State and Local Cybersecurity Improvement Act 
to achieve that goal. But we can't stop there. I look forward to 
hearing testimony from our witnesses on the innovative approaches that 
Congress should consider as we strive to tackle this problem once and 
for all. The recommendations from the Ransomware Task Force are a great 
place to start, but let's keep the pedal to the metal.

    Chairwoman Clarke. I thank you, Mr. Ranking Member, for 
your statement. Additional statements may be submitted for the 
record.
    [The statements of Chairman Thompson and Honorable Jackson 
Lee follows:]
                Statement of Chairman Bennie G. Thompson
                              May 5, 2021
    Good afternoon. I want to thank Chairwoman Clarke for holding this 
important hearing on the ransomware crisis facing our country.
    Last fall, in my district, the Yazoo County School District paid 
$300,000 to a cybersecurity firm to recover data that was encrypted in 
a ransomware attack.
    For a county of fewer than 30,000 people, that is a lot of money.
    In fact, that is 1.5 percent of the school district's annual budget 
that had to be spent on just one incident.
    Unfortunately, Yazoo County is not alone. School districts across 
the country have been forced to respond to ransomware attacks in the 
midst of the unprecedented challenges they have faced during this 
pandemic, where access to technology has been more important than ever.
    To be clear, this is a National security issue.
    We cannot expect school districts like Yazoo County to defend 
themselves alone when these attacks are coming from sophisticated 
criminal gangs based overseas that frequently have the tacit or even 
direct support of adversaries like Russia or North Korea.
    And the harms these communities face are frequently not just 
financial.
    Ransomware attacks have led to canceled school days, delayed 
medical procedures, and disruptions to emergency response services.
    For these reasons, it is essential that we pass Chairwoman Clarke's 
State and Local Cybersecurity Improvement Act to ensure State, local, 
territorial, and Tribal governments get the assistance they need to 
defend their networks.
    I am proud to be a cosponsor of this important legislation and look 
forward to working with Chairwoman Clarke and the bill's bipartisan 
group of supporters to get it enacted into law.
    We cannot afford to wait any longer to provide the funding 
necessary to protect our State and local governments.
    Fortunately, it is clear that the Biden administration has made 
addressing ransomware a priority.
    From Secretary Mayorkas announcing DHS's 60-day sprint on 
ransomware to the Justice Department's new task force, the Executive 
branch is now demonstrating the coordinated approach that reflects the 
gravity of this threat.
    This committee stands ready to work with them to ensure the 
resources and authorities are there to fulfill this critical mission.
    The recently released Ransomware Task Force report provides 
numerous recommendations on how we can develop a cohesive approach to 
combatting ransomware.
    I appreciate the hard work of the members of the Task Force in 
putting together this comprehensive document in just the last 3 months, 
reflecting the urgency of this growing crisis.
    The report makes clear that despite the many challenges presented 
by cryptocurrencies and foreign adversaries that help disguise and 
protect ransomware criminals, there are important steps the Government 
can take to enhance defenses, improve information sharing, and 
collaborate with partners in the private sector and internationally to 
tack this problem.
    These proposals have given Congress much to consider, and we are 
committed to ensuring that this issue remain a priority for Congress, 
so we can take meaningful action.
    I am eager to hear more from the witnesses on these recommendations 
and how they envision DHS's role in implementing them.
    I thank the witnesses for being here and again thank Chairwoman 
Clarke for her leadership on this issue and congratulate her on 
returning to chairing this important this subcommittee.
    I look forward to continuing to work with her, along with the new 
subcommittee Ranking Member, Mr. Garbarino, on important cybersecurity 
issues like this one.
    I yield back.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                              May 5, 2021
    Chairwoman Yvette Clarke, and Ranking Member Andrew Garbarino, 
thank you for convening today's hearing on ``Responding to Ransomware: 
Exploring Policy Solutions to a Cybersecurity Crisis.''
    I thank today's witnesses:
  <bullet> Maj. Gen. John Davis (Ret.), vice president and Federal 
        chief security officer at Palo Alto Networks;
  <bullet> Ms. Megan Stifel, executive director, Americas at the Global 
        Cyber Alliance;
  <bullet> Mr. Denis Goulet, commissioner, Department of Information 
        Technology and chief information officer, State of New 
        Hampshire (on behalf of the National Association of State Chief 
        Information Officers); and
  <bullet> Mr. Chris Krebs, former director, Cybersecurity and 
        Infrastructure Security Agency, U.S. Department of Homeland 
        Security.
    I especially want to extend my thanks and appreciation to Mr. 
Christopher Krebs who has appeared before this committee on the topic 
of cybersecurity as the first director of the Department of Homeland 
Security's Cybersecurity and Infrastructure Security Agency (CISA).
    Your service to our Nation at a time when Russia worked to 
undermine the security of the 2020 election, just as it had done in the 
2016 election was exemplary.
    I regret that your work as head of CISA ended over your firm belief 
in being truthful to the American people regarding the cybersecurity of 
the election that Joe Biden won with over 7 million more votes than his 
opponent Donald J. Trump.
    Cybersecurity is not something you can see or actively prove--it is 
established by each moment of each day that a network or computing 
device remains free of breaches by adversaries.
    This hearing will provide Members the opportunity to engage with 
subject-matter experts on the problem of ransomware attacks.
    The purpose of this hearing is to explore emerging trends in 
ransomware attacks and how the Government and private sector are 
working together to improve network defense.
    In particular, the hearing will provide an opportunity to evaluate 
the recommendations made by the Ransomware Task Force report, released 
on Thursday of last week, which includes 48 recommendations directed at 
Federal agencies, State and local governments, private-sector entities, 
and the international community to develop a comprehensive approach to 
confronting ransomware.
    We know from our work on this committee that determined adversaries 
will spare little to succeed in breaching U.S. networks.
    The goal of cybersecurity throughout the Federal Government must be 
to block adversaries when it is possible, detect and eradicate them 
quickly when it is not, and impose consequences to raise the costs and 
deter malicious behavior in cyber space.
    For 4 years, Federal efforts to raise the National cybersecurity 
posture--across Federal networks, State and local governments, and the 
private sector--were stunted by a lack of steady, consistent leadership 
from the White House, leaving agencies to pursue piece-meal approaches 
to cybersecurity.
    Congressional efforts to address the weaknesses in Federal 
cybersecurity include several Jackson Lee bills that include following 
measures introduced in the 117th Congress:
    H.R. 119--Cyber Defense National Guard Act, which requires the 
Office of the Director of National Intelligence to report to Congress 
regarding the feasibility of establishing a Cyber Defense National 
Guard that may be activated during emergencies that affect the 
cybersecurity of the Nation or critical infrastructure.
    H.R. 118--Cyber Vulnerability Disclosure Reporting Act, requires 
the Department of Homeland Security to submit a report describing the 
policies and procedures developed to coordinate the disclosure of cyber 
vulnerabilities. The report shall describe instances when these 
policies and procedures were used to disclose cyber vulnerabilities in 
the previous year. Further, the report shall mention the degree to 
which the disclosed information was acted upon by stakeholders.
    H.R. 57, the DHS Cybersecurity Asset Protection of Infrastructure 
under Terrorist Attack Logistical Structure Act or the CAPITALS Act, 
which requires the Department of Homeland Security (DHS) to report to 
Congress on the feasibility of establishing a DHS Civilian Cyber 
Defense National Resource.
    The goals of the Jackson Lee legislative efforts during the 116th 
Congress were to raise the baseline cybersecurity posture across the 
Federal and work with the private sector to reduce avoidable, 
opportunistic attacks and to refocus talent, time, and resources on 
preventing, detecting, and eliminating more sophisticated attacks.
    The Raising the Nation's baseline cybersecurity posture will 
require a systemic, whole-of-Government approach to cybersecurity.
                        the need to take action
    Ransomware is a form of cyber crime where criminal actors 
compromise a victim's computer systems, preventing access or 
threatening to release sensitive information if the victim does not 
provide a ransom payment.
    In recent years, the number of ransomware attacks has increased 
significantly, affecting school districts, police departments, 
hospitals, and numerous businesses, among others.
    In 2020, an estimated 2,400 governments, hospitals, and school 
districts were victims of ransomware attacks in the United States.
    Victims made an estimated $350 million in ransomware payments in 
2020, with an average payment of $312,493.
    In the first quarter of 2021, the average monetary demand 
associated with a ransomware attack increased to $220,298, up 43 
percent from the previous quarter.
    While many businesses suffer significant losses due to disruptions 
from ransomware and the cost of remediation or making ransom payments, 
when criminals groups target Government entities or other critical 
infrastructure, the effects can pose significant risks to public 
safety.
    For example, there were 560 ransomware attacks on U.S. health care 
facilities in 2020, in some cases causing delays in treatment for 
serious illnesses.
    In a growing number of ransomware attacks, the perpetrators engage 
in ``double extortion'' where they threaten to release sensitive data 
publicly if a ransom payment is not made.
    Last week, the Washington, DC police department was hit by a 
ransomware attack that included the release of detailed background 
reports on 5 current or former police officers and the threat to 
release files publicly.
    Ransomware can be delivered in various ways, the majority of which 
utilize email. Ransomware are real, but computers aren't infected just 
by opening emails anymore.
    Just opening an email to view it is safe now--although attachments 
& links in the email can still be dangerous to open.
    Phishing is one of the most common methods of delivering 
ransomware. When a user downloads a malicious attachment within a 
phishing email which contains ransomware, all of the user's files are 
encrypted and made inaccessible until ransom is paid.
    While it is not always possible to prevent a successful attack, 
engaging in general security best practices and implementing effective 
email protection can drastically reduce your risk.
    This is why I introduce an amendment to last year's National 
Defense Authorization Act that implements a recommendation made by the 
Cyberspace Solarium Commission to require the Secretary of Homeland 
Security to develop a strategy to implement Domain-based Message 
Authentication, Reporting, and Conformance (DMARC) standard across 
U.S.-based email providers.
    I thank my Colleagues Congressmen Langevin, Gallagher, Katko, and 
Joyce for joining this bipartisan amendment to the fiscal year NDAA.
    This amendment focused on the vulnerability of the internet's 
underlying core email protocol, Simple Mail Transport Protocol (SMTP), 
which was first adopted in 1982 and is still deployed and operated 
today.
    However, this protocol is susceptible to a wide range of attacks 
including man-in-the-middle content modification and content 
surveillance.
    The security of email has grown in importance as it has become in 
many ways the primary way that businesses, consumers, Government 
communicate.
    The Solarium Commission's 75 recommendations are organized under 6 
pillars:
    (1) Reform the U.S. Government's Structure and Organization for 
        Cyberspace;
    (2) Strengthen Norms and Non-Military Tools;
    (3) Promote National Resilience;
    (4) Reshape the Cyber Ecosystem toward Greater Security;
    (5) Operationalize Cybersecurity Collaboration with the Private 
        Sector; and
    (6) Preserve and Employ the Military Instrument of Power.
    This amendment presented an opportunity to take a significant step 
forward in establishing a cybersecurity ecosystem that reinforces a 
cultural shift in how the Federal Government enforces norms that 
sustain cybersecurity.
    Most recently, the Russian government infiltrated Government and 
critical infrastructure networks, in part, by executing a supply chain 
attack through the SolarWinds Orion platform.
    In December, the Federal Government learned the Russian government 
had executed a malicious cyber campaign targeting Federal networks and 
certain critical infrastructure.
    Russian hackers used a combination of traditional tactics, 
techniques, and procedures (e.g.: password guessing) and a supply chain 
attack to infiltrate targeted networks.
    In a supply chain attack, malicious actors infiltrate a target 
network by exploiting security vulnerabilities in the network of a 
trusted partner to gain access to the targeted network.
    In this case, one of the trusted partners was SolarWinds, a U.S.-
based vendor whose Orion Platform provides network monitoring services 
to entities across the world, including the U.S. Government.
    To execute the attack, hackers gained access to SolarWinds and 
injected malicious code into an Orion software update sent to customers 
in March 2020.
    The malicious code created a back door in the affected network that 
caused the server to communicate with a U.S. IP address after a dormant 
period.
    In response, hackers sent additional malicious code to some, but 
not all, affected networks.
    Ultimately, the additional malicious code allowed hackers to access 
elevated credentials and move around a victim's network, monitoring 
activity and slowly taking data. To deceive security products on 
customers' networks, actors disguised their activity as normal network 
traffic and were able to persist through the creation of additional 
credentials from other applications.
    A total of 18,000 SolarWinds customers downloaded the compromised 
version of Orion, but far fewer have identified activity beyond the 
creation of a backdoor.
    Nearly 40 Federal agencies downloaded the compromised SolarWinds 
Orion update, but evidence of further compromise has only been detected 
at 9 Federal agencies to date. Agencies that downloaded the compromised 
Orion update continue to hunt for indicators of compromise.
    It is important to note that about 30 percent of both Government 
and non-Government victims of the Russian cyber campaign had no direct 
connection with Solar Winds.
    According to news reports, hackers also breached networks by 
``exploiting known bugs in software products, by guessing on-line 
passwords and by capitalizing on a variety of issues in the way 
Microsoft Corp.'s cloud-based software is configured.''
    Bugs can also be called Zero Day Events that if exploited could 
cost significant disruption in the function of application or services 
that rely in computers or remote computing services.
    The SolarWind Orion exploit was not, from what we have learned thus 
far was not intended to damage or disrupt computing systems, it was 
designed to spy on networks and spread to other systems.
    The SolarWinds campaign illustrates many of the shortcomings in the 
Federal Government's ability to monitor and respond to threats on 
private networks.
    Because there is no overarching Federal law requiring private 
entities to report cybersecurity incidents, there is little public 
information on the number of victims that installed the infected 
versions of SolarWinds Orion or experienced second-stage intrusions.
    The Cybersecurity and Infrastructure Security Agency should be 
empowered to more effectively coordinate and lead interagency 
cybersecurity and risk management activities.
    Congress should provide CISA the authorities and budget that match 
its mission.
    Over the past decade, the private sector has raised fair concerns 
about the value of many Federal cybersecurity programs and has used its 
concerns as an excuse for not fully participating, to the detriment of 
National cybersecurity efforts.
    That must stop. The private sector has an important role to play to 
improve the Nation's cybersecurity posture and must step up.
    Solving this cybersecurity challenge will require creativity from 
policy makers as we seek out new strategies to bolster security efforts 
for Federal and private-sector networks.
    I look forward to working with the committee on a cybersecurity 
bill to address the issues raised in my statement.
    I look forward to questions and answers with our witnesses.
    I yield back.

    Chairwoman Clarke. I now welcome our panel witnesses.
    Retired Major General John Davis is the vice president for 
the Public Sector at Palo Alto Networks and is also a co-chair 
of the Ransomware Task Force at the Institute for Security and 
Technology. Prior to joining the Palo Alto Networks, General 
Davis served as the senior military advisor for cyber to the 
undersecretary of defense for policy and served as the acting 
deputy assistant secretary of defense for cyber policy.
    Ms. Megan Stifel is the executive director for the Americas 
at the Global Cyber Alliance and is also a co-chair of the 
Ransomware Task Force. Prior, Ms. Stifel served as a director 
for international cyber policy in the National Security Council 
at the White House and was an attorney in the National Security 
Division at the Department of Justice.
    Mr. Denis Goulet is the commissioner of the Department of 
Information Technology for the State of New Hampshire and the 
current president of the National Association of State Chief 
Information Officers. Mr. Goulet also has nearly 30 years of 
private-sector IT experience in the sectors ranging from health 
care to manufacturing.
    Finally, Mr. Chris Krebs, former director of the 
Cybersecurity and Infrastructure Security Agency, CISA, at the 
Department of Homeland Security.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes beginning with General Davis.

STATEMENT OF MAJOR GENERAL JOHN A. DAVIS, U.S. ARMY (RETIRED), 
       VICE PRESIDENT, PUBLIC SECTOR, PALO ALTO NETWORKS

    Mr. Davis. Good afternoon. I am honored to appear before 
you today to discuss actionable policy solutions to address the 
unsustainable rise of ransomware. I would like to thank 
Chairman Thompson and Ranking Member Katko, Chairwoman Clarke 
and Ranking Member Garbarino for their leadership on this 
important issue. I offer my commitment to work in partnership 
with you and your staff to support the committee's actions to 
address this threat.
    That the committee would hold this hearing shows that you 
see what we do, that ransomware is a profound and growing 
threat. Indeed, we believe that it has crossed a threshold. It 
is no long purely a criminal nuisance driven by a profit 
motive. Now it is impacting National security, economic 
stability, and public health and safety of the National and 
international community on a massive scale.
    Unfortunately, the problem is getting worse. An analysis by 
the Palo Alto Networks' Unit 42 Threat Intelligence team 
concluded that the average ransom paid for organizations 
increased 171 percent year over year from 2019 to 2020. 
Adversary tactics are increasingly egregious. As mentioned 
earlier, in 2020, for instance, ransomware disproportionately 
impacted the health care sector as hospital systems struggled 
to cope with the COVID-19 pandemic.
    This unsustainable trajectory compelled the creation of the 
Ransomware Task Force. Our goal was not to achieve an 
unrealistic outcome where all ransomware can be eliminated. 
Rather our objective is to proactively and relentlessly disrupt 
the ransomware business model and make ransomware a threat that 
can be more effectively managed through a series of coordinated 
actions which can be implemented by industry, Government, and 
civil society. In total, the report identifies 48 actions 
across 4 strategic goals: To deter ransomware attacks through a 
Nationally and internationally coordinated comprehensive 
strategy; to disrupt the ransomware business model and decrease 
criminal profits; to help organizations prepare for ransomware 
attacks; and to respond to ransomware attacks more effectively.
    Our recommendations should be viewed as a set of collective 
mutually reinforcing actions that should be applied with 
continuous, coordinated, and overwhelming pressure. Some can be 
immediately pursued, some will require more time and creative 
policy solutions, including new legislation. I will focus today 
on 2 of the report's recommendations.
    First, the United States should lead by example and execute 
a sustained, aggressive, whole-of-Government anti-ransomware 
campaign coordinated by the White House and in partnership with 
the private sector. The foundational step is recognizing that 
the nature of the ransomware challenge will require a massive 
team effort across Government, industry, academia, nonprofits, 
and the international community. This effort and our 
recommendations must be embraced at the highest levels of 
Government and industry as a policy priority and given 
sufficient resources. To this end, we are heartened to see 
recent actions at the Department of Homeland Security and the 
Department of Justice that signal elevated prioritization.
    Second, we should develop a clear, actionable framework for 
ransomware mitigation, response, and recovery. We see a core 
responsibility to help all organizations better prepare. 
Improving the ability to prepare for and even prevent 
ransomware events from happening in the first place is, in my 
view, the single most important function in reducing this 
threat to a manageable level. The adage an ounce of prevention 
is worth a pound of cure is especially true in the case of 
ransomware because once you have been hit, you have already 
lost the battle and can only play a painful catch-up game.
    Most organizations, regardless of size or security acumen, 
are aware of the threat, yet these organizations don't 
understand how to reduce their risk. An action we can take is 
the creation of an internationally-accepted framework that 
establishes clear steps to prevent or recover from attacks.
    Finally, these recommendations serve as a foundation for 
other policy actions. For example, the task force recommends 
the creation of a cybersecurity grant for--a grant program for 
States where funding for ransomware prevention technologies 
could be unlocked through alignment to the best practice 
framework once it is established. This will enhance the 
resilience of local information systems and provide a much-
needed modernization of security tools to prevent attacks.
    Distinguished Members of this subcommittee, thank you again 
for the opportunity to testify today and I look forward to 
answering your questions.
    [The prepared statement of Mr. Davis follows:]
                  Prepared Statement of John A. Davis
                              May 5, 2021
    Chairwoman Clarke, Ranking Member Garbarino, and distinguished 
Members of the subcommittee, I am honored to appear before you today to 
discuss actionable policy solutions to address the unsustainable rise 
of ransomware. Thank you all for your leadership on this issue. I offer 
my commitment to work in partnership with you and your staff to support 
the subcommitte's oversight responsibilities on this issue.
    That the committee would hold this hearing shows that you see what 
we do: That ransomware is a profound and growing cybersecurity threat. 
Indeed, ransomware has crossed a strategic threshold. It is no longer 
purely a criminal nuisance driven by a profit motive. Rather, it is now 
impacting National security, economic stability, and public health and 
safety of the National and international community on a massive scale.
    Unfortunately, the problem is getting worse. An analysis by the 
Palo Alto Networks Unit 42 threat intelligence team concluded that the 
average ransom paid for organizations increased 171 percent year over 
year from 2019 ($115,123) to 2020 ($312,493). The highest-known paid 
ransom in 2020 doubled from the previous years ($5 million to $10 
million). And adversary tactics are getting increasingly egregious. In 
2020, for instance, ransomware disproportionately impacted the health 
care sector as hospital systems struggled to cope with the COVID-19 
pandemic.
    This unsustainable trajectory compelled Palo Alto Networks--and the 
broader ecosystem of collaborators that comprised the Ransomware Task 
Force--to take action. The Ransomware Task Force (RTF) is a public-
private coalition of over 60 experts from Government, industry, 
nonprofits, and academia that came together to develop a comprehensive 
framework to tackle the ransomware threat. I am honored to represent 
the Task Force along with my colleague Megan Stifel at this hearing and 
discuss some of the key policy recommendations from the report the RTF 
released last week on April 29.
    The goal of the RTF was not simply to help the world better 
understand ransomware; we are well past that point. Nor was it to 
achieve an unrealistic outcome where all ransomware could be 
eliminated. Our objective was to proactively and relentlessly disrupt 
the ransomware business model through a series of coordinated actions 
which can be implemented by industry, Government, and civil society. In 
total, the report identifies 48 actions across 4 strategic goals.
    1. Deter ransomware attacks through a nationally and 
        internationally coordinated, comprehensive strategy;
    2. Disrupt the ransomware business model and decrease criminal 
        profits;
    3. Help organizations Prepare for ransomware attacks; and
    4. Respond to ransomware attacks more effectively.
    I will focus today on the report's recommendations that the United 
States should lead by example and execute a sustained, aggressive, 
whole-of-Government, intelligence-driven anti-ransomware campaign, 
coordinated by the White House, and that the United States should 
develop a clear, actionable framework for ransomware mitigation, 
response, and recovery, mapped to specific security capabilities 
organizations need to protect themselves.
    Before turning to these points, I would like to introduce myself. 
As a reminder, I am here today in my capacity as a co-chair of the 
Ransomware Task Force. I am a retired U.S. Army Major General now 
serving as Vice President of Public Sector for Palo Alto Networks, 
where I am responsible for expanding cybersecurity and global policy 
initiatives for the international public sector and assisting 
governments and industry organizations around the world in preventing 
successful cyber attacks and protecting our digital way of life. Prior 
to joining Palo Alto Networks, I served as the senior military cyber 
advisor at the Pentagon and was appointed as the acting deputy 
assistant secretary of defense for cyber policy. Prior to this 
assignment, I served in multiple leadership positions in operational 
cyber assignments, special operations, and information warfare. These 
experiences provide me with a unique perspective on both the commercial 
cybersecurity marketplace as well as efforts under way across the U.S. 
Government to leverage technological innovation to solve critical 
cybersecurity challenges, including the threat of ransomware.
    For those not familiar with Palo Alto Networks, we were founded in 
2005 and have since become the world's largest cybersecurity company. 
We serve more than 80,000 enterprise and Government organizations--
protecting billions of people--in more than 150 countries. We support 
95 of the Fortune 100 and more than 71 percent of the Global 2000 
companies, and are partnered with elite technology leaders.
    Palo Alto Networks collaborates extensively with key stakeholders 
across the U.S. Government and with like-minded countries 
internationally on both policy and operational matters. For example, 
Palo Alto Networks is a member of the President's National Security 
Telecommunications Advisory Committee (NSTAC), providing industry 
counsel on National security policy and technology issues for the White 
House and other senior U.S. Government leaders; the Executive Committee 
of the Information Technology Sector Coordinating Council (IT-SCC), the 
principal entity for coordination between the Department of Homeland 
Security and IT sector; and the Defense Industrial Base Sector 
Coordinating Committee. Finally, we maintain robust threat 
intelligence-sharing partnerships with DHS, the intelligence community 
and across the international community to share technical threat data 
and collaborate to support Government and industry response to 
significant cyber incidents, like SolarWinds and Microsoft Exchange.
    This commitment to meaningful collaboration with governments to 
tackle our shared cybersecurity goals is what compelled us to join the 
Ransomware Task Force. It has been an honor to be a part of this group 
and I have been humbled by the depth of passion and expertise this 
public-private partnership has brought to addressing this challenge. 
The diversity of thought, perspectives, and experience that the RTF 
reflects should give you confidence in the viability and immediacy of 
the recommendations articulated in the report at accomplishing these 
recommendations would lead to our overall shared strategic goals.
    It's important to note that since its formation, the RTF has been 
deeply cognizant that we are not the first group to seek to tackle the 
ransomware issue. Many good initiatives have been stood up to focus on 
addressing cybersecurity and the threat of ransomware specifically. We 
stand on the shoulders of those efforts. The RTF never endeavored to 
replace that work--but instead consolidate and clarify the very best 
into a comprehensive strategic framework for action.
    The RTF report recommendations are about dramatically reducing 
ransomware as a threat; there are no illusions about ``solving 
ransomware.'' Instead, the report takes a practical approach to change 
the trajectory of this threat that has now crossed over a very 
dangerous threshold. We believe that our recommendations can reduce 
ransomware to a threat that can be more effectively managed like other 
threats that are dealt with through a practical risk management 
framework.
    While I will highlight just a few of the report's key 
recommendations, I believe that the recommendations in the report 
should be viewed as a set of collective actions that should be applied 
with continuous, coordinated and overwhelming pressure. Some of these 
recommendations can immediately be pursued. Some will require creative 
policy solutions, including new legislation.
    RTF Report Recommendation.--The United States should lead by 
example and execute a sustained, aggressive, whole-of-Government, 
intelligence-driven anti-ransomware campaign, coordinated by the White 
House.
    A foundational step is recognizing that the nature of the 
ransomware challenge will require a massive effort to sustainably shift 
the trajectory. While I am a retired Army General, I will borrow a 
phrase from my Naval comrades to say that our report calls for an ``all 
hands on deck'' approach. No single organization, public or private, 
has all of the capabilities, capacities, skills, experience, resources, 
or authorities to act effectively in isolation.
    It will take a team approach across Government, industry, academia, 
nonprofits, and the international community. This effort and our 
recommendations must be embraced at the highest levels of Government 
and industry as a policy priority and given sufficient resources. To 
this end, we are heartened to see recent actions at the senior levels 
of the Department of Homeland Security and Department of Justice that 
signal the elevated prioritization of addressing this issue on a 
National and international level. But much more can and must be done to 
elevate this to even higher organizational levels within the 
administration.
    RTF Report Recommendation.--Develop a clear, actionable framework 
for ransomware mitigation, response, and recovery.
    In addition to the need for greater strategic attention and 
coordination at the National policy levels, we also saw a core 
responsibility to help all organizations--States and localities, 
schools, and critical infrastructure like hospital systems--better 
prepare operationally for the threat of ransomware attacks.
    Within the RTF, I was a co-chair of the Prepare Working Group. 
Improving the ability to prepare for and even prevent most ransomware 
events from happening in the first place is the single most important 
function in reducing this threat to a manageable level. Building on 
best practices that have proven to be successful, clarifying and 
consolidating them, and making them easily accessible at appropriate 
levels is one of the most powerful tools we can employ. The adage ``an 
ounce of prevention is worth a pound of cure'' is especially true in 
the case of ransomware because, once you have been hit, you have 
already lost the battle and can only play catch up.
    Most organizations, regardless of size or security acumen, are 
aware of the threat of ransomware. But most are not similarly empowered 
with adequate knowledge to quantify how finite resources can be applied 
to reduce their risk to ransomware threats specifically. We need to 
bridge the communications gap between IT and security professionals and 
senior organizational leadership. We need organizations to stop 
thinking about ransomware as a niche cybersecurity issue but instead as 
a core business continuity risk that must be managed in the same way as 
other physical disruptions.
    The RTF saw the current State of awareness around ransomware as 
similar to the environment prior to 2014, when no authoritative 
compilation of best practices existed for cybersecurity generally. NIST 
responded by leading a multi-stakeholder process to create the 
Framework for Improving Critical Infrastructure Cybersecurity. In a 
similar way, the single most impactful measure we can take to help 
organizations is the creation of an internationally accepted framework 
that establishes clear actionable steps to prevent ransomware, and 
recover from it if prevention is not successful.
    Of course, while technology isn't the only category associated with 
building this framework, it is certainly an important arrow in the 
quiver. Ransomware prevention technologies exist today and have 
demonstrated success. However, these technologies are not widely 
adopted. Coming from the cybersecurity industry, I have personally 
witnessed both traditional and emerging technologies that have 
demonstrated success in preventing ransomware attacks. Effective 
technologies include Endpoint or Extended Detection and Response (EDR/
XDR) with automated behavioral analytics, fileless protections and 
deceptive technologies that stage objects as decoys or deploy decoy 
documents. These tactics employ automation and advanced analytics to 
flag modification to files and automatically prevent the ransomware 
encryption process. There are also cloud-based capabilities to launch 
unknown processes or applications in a container, which prevents 
malicious software or command and control channels from interacting 
with an organization's core network.
    More traditional technologies at the network level include those 
that monitor and block common ransomware methods, such as Remote 
Desktop Protocol (RDP), phishing protections, capabilities that limit 
access to unknown or risky domains, and Secure Socket Layer (SSL) 
decryption to observe and scan content as it traverses the network. 
Finally, the traditional capabilities such as Uniform Resource Locator 
(URL) filtering, Domain Name System (DNS) security, Intrusion 
Prevention Systems (IPS) and sandboxing capabilities provide 
protections against many common ransomware tactics, techniques, and 
procedures.
    Once the proposed ransomware framework's baseline security 
standards are established, it will be critical to map those standards 
to the specific security capabilities that organizations need to 
protect themselves. The creation of framework-aligned ransomware 
prevention reference architectures using industry leading technologies, 
consistent with the on-going work at NIST's National Cybersecurity 
Center of Excellence, would be helpful toward this end.
    Finally, these baseline best practices can also serve as a 
foundation for a number of potential policy actions to raise the bar of 
security across critical infrastructure and Government. To this end, 
the RTF report suggests several incentives for entities that 
demonstrate a commitment to maturing their capabilities in alignment 
with the ransomware framework. For example, the report recommends the 
creation of a cybersecurity grant program for States and localities, 
where funding to procure ransomware-prevention-focused security 
technologies could be unlocked through demonstrated alignment to the 
established best practice framework. Dedicated funding--aligned to 
strong cybersecurity planning and continuous vulnerability 
assessments--will enhance the resilience of State and local information 
systems, and provide a much-needed modernization of the security tools 
these governments use to prevent ransomware attacks. Opening up 
opportunities for multi-State grants will further drive innovation, 
security, and efficiency.
    Chairwoman Clarke, Ranking Member Garbarino, and distinguished 
Members of the subcommittee, thank you again for the opportunity to 
testify today. I look forward to answering any questions you may have.

    Chairwoman Clarke. Thank you. I now recognize Megan Stifel 
to summarize her statement for 5 minutes.

  STATEMENT OF MEGAN H. STIFEL, EXECUTIVE DIRECTOR, AMERICAS, 
                     GLOBAL CYBER ALLIANCE

    Ms. Stifel. Chairwoman Clarke, Ranking Member Garbarino, 
Members of the subcommittee, thank you for the opportunity to 
testify today on the growing threat ransomware poses to our 
homeland and National security. My name is Megan Stifel and I 
am the executive director, Americas, at the Global Cyber 
Alliance, an international nonprofit organization dedicated to 
providing practical solutions to reducing cybersecurity risks.
    Like John, I appear before you today as co-chair of the 
Ransomware Task Force, a group of more than 50 organizations 
that convened with the Institute of Security and Technology and 
gathered over the past 4 months to develop a comprehensive 
framework to reduce the risk of ransomware. Last week the task 
force published a report outlining 5 priority recommendations 
to achieve 4 goals, as noted with a series of 48 total 
recommendations. I will focus my testimony today on 3 of these 
recommendations.
    First, the need for a coordinated international diplomatic 
and law enforcement effort to prioritize ransomware, supported 
in the United States by a whole-of-Government strategy.
    Second, the need for enhanced information to support and 
enable this effort, including the development of a ransomware 
framework to help organizations better prepare for and respond 
to ransomware.
    Third, the establishment of cyber response and recovery 
funds and other assistance to support ransomware response and 
other cybersecurity activities.
    As the Members of the subcommittee well know, the scope and 
scale of ransomware has grown exponentially over the past year. 
Payments in the $40,000 range in 2019 quadrupled to $170,000 on 
average in 2020. Recent reports indicate that some payments 
have stretched to the millions while demands have stretched to 
the tens of millions. But as also noted, not the size of 
payments just grew, but also the number of organizations 
targeted. Twenty-four hundred U.S.-based Government health care 
facilities and schools were known to have been targeted in 2020 
by ransomware. The actual number who were affected potentially 
may be much higher.
    In addition to holding access to data hostage, ransomware 
hackers now threaten to publish the data they obtained from the 
victims' networks. According to one report in the fourth 
quarter of 2020, 70 percent of reported ransomware attacks 
threatened to release the data. Ransomware is, plain and 
simple, 21st Century extortion.
    These figures illustrate that in just a few years 
ransomware has grown from a nuisance to a National security 
threat. Organizations around the world have been targeted, but 
as has also been well established, ransomware actors operate 
from safe havens, countries whose governments are mostly 
unwilling as well as unable to assist in efforts to bring them 
to justice. As such, without significantly limiting the 
ransomware attack at scale, there is little guarantee it will 
not simply emerge elsewhere, presenting an on-going risk to the 
global community.
    The Ransomware Task Force convened in order to address this 
growing international challenge. Its breath influenced the task 
force's first priority recommendation. Specifically, the 
coordinated international diplomatic and enforcement efforts 
make clear that ransomware is an international and National 
security and law enforcement priority, and that an 
international coalition be established to combat it.
    Governments must also develop comprehensive, resourced 
strategies that use both carrots and sticks to reduce the 
number of countries providing safe havens. But as the task 
force's other recommendations make clear, governments must also 
work collaboratively together and with the private sector to 
share information, jointly investigate, and bring these actors 
to justice or otherwise eliminate their ability to operate with 
impunity.
    For the United States, the task force recommends that this 
effort be led by a whole-of-Government strategy out of the 
White House. This strategy should also include a Ransomware 
Task Force to coordinate a Nation-wide campaign against 
ransomware and identify and pursue opportunities for 
international collaboration. This task force should also 
collaborate closely with private-sector organizations that can 
help defend and disrupt ransomware operations, such as security 
vendors, platforms, ISAOs, and cybersecurity nonprofits.
    Second, better information is necessary to enable this 
collective international action. It is important to emphasize 
we are not talking about more information sharing of indicators 
of compromise. Both the scope and quality of information must 
improve. For example, IOCs should be tied to ransomware 
incidents and this information must get quickly into the hands 
of those who can use it within the Government as well as 
outside it. IOCs must also be supplemented with additional 
information, including payments.
    Better information, however, is necessary, but insufficient 
to fully combat this threat. Organizations, both their 
leadership as well as their operational--in operational roles 
need to understand that ransomware is a real and relevant 
threat. They need better guidance on how to prioritize 
mitigation efforts, especially given their limited resources.
    To address this gap, the task force recommends that a 
framework be developed to help organizations better prepare for 
and respond to ransomware attacks, together with materials to 
support framework implementation such as tool kits and other 
how-to resources. The Global Cyber alliance, and other 
organizations, I am sure, is ready to add such guidance to our 
existing resources to assist organizations in reducing their 
risk.
    Finally, additional resources for implementation are 
essential to the success of the ransomware framework and 
through it the disruption of the ransomware business model. The 
task force, therefore, recommends that governments establish 
response and recover funds. The task force believe the ability 
of these funds will help reduce the number of victims electing 
to pay the ransom demand. As an incentive, organizations could 
be required in order to access such funds to demonstrate a use 
of the ransomware framework to ensure a commitment to a 
baseline level of cybersecurity.
    In addition, the task force recommends that more grant 
funding be available. For example, Homeland Security 
Preparedness Grants could be expanded to address cybersecurity 
threats.
    On a personal note, I would like to emphasize the 
importance of these grants. A dollar spent to prevent crime 
will be more effective than a dollar spent to recover from it.
    In closing, I want to highlight the essential role 
nonprofits played in developing the task force's 
recommendations and that they can play in their implementation. 
Nonprofits develop policy recommendations, support information 
sharing, and, in the case of GCA, provide guidance on the 
implementation of established cybersecurity best practices, 
including to combat ransomware. The task force offered a range 
of actions that could be taken building on these capabilities 
to stem the burgeoning ransomware threat.
    Nonprofits depend on contributions from a range of 
stakeholders to fulfill their unique and important roles. Now 
more than ever it is critically important that all stakeholders 
take collective action to combat this threat.
    Thank you again for the opportunity to testify today. I 
welcome your questions.
    [The prepared statement of Ms. Stifel follows:]
                 Prepared Statement of Megan H. Stifel
                              May 5, 2021
    Chairwoman Clarke, Ranking Member Garbarino, Members of the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Innovation, thank you for the opportunity to testify today on the 
growing threat ransomware poses to our homeland and National security.
    My name is Megan Stifel, and I am the executive director, Americas, 
at the Global Cyber Alliance (GCA). GCA is an international nonprofit 
organization dedicated to providing practical solutions to reduce 
cybersecurity risk. I appear before you today as a co-chair of the 
Ransomware Task Force, convened by the Institute for Security and 
Technology, and comprised of over 50 organizations that gathered over 
the past 4 months to develop a comprehensive framework to reduce the 
risk of ransomware. Last week the Task Force published a report 
outlining its recommendations, including 4 goals and 5 priority 
recommendations, with a series of supporting actions constituting 48 
total recommendations. The priority recommendations include the need 
for sustained, coordinated collective action among governments, 
industry, academia, and nonprofits to meaningfully reduce the 
ransomware threat.
    I will focus my testimony today on 3 of these priority 
recommendations. First is the need for a coordinated, international 
diplomatic and law enforcement effort to prioritize ransomware, 
supported in the United States by a comprehensive whole-of-Government 
strategy. Second is the need for enhanced information to support and 
enable this effort, including the development of a ransomware framework 
to help organizations better prepare for and respond to ransomware. And 
third is the establishment of Cyber Response and Recovery Funds and 
other assistance to support ransomware response and other cybersecurity 
activities.
    As Members of this subcommittee know well, the scale and scope of 
the ransomware challenge has grown exponentially over the past year. In 
2019 the average ransomware payment was $43,593; by the end of 2020 it 
had quadrupled to $170,696.\1\ Recent reports indicate some payments 
have stretched to the millions, while demands have reached the tens of 
millions.\2\ But not just the size of ransom payments grew, so too did 
the number of organizations targeted, including hospitals and schools. 
In 2020, nearly 2,400 U.S.-based government, health care facilities, 
and schools were known to have been targeted with ransomware,\3\ with 
the actual number affected potentially much higher. In addition to 
holding access to data hostage, ransomware actors are now threatening 
to publish data they have obtained from the victim's networks. 
According to Coveware, in the third quarter of 2020, 50 percent of 
ransomware attacks involved a threat to release data. That figure rose 
to 70 percent in the fourth quarter of 2020. Ransomware is plain and 
simple 21st Century extortion.
---------------------------------------------------------------------------
    \1\ Coveware, ``Ransomware Payments Fall as Fewer Companies Pay 
Data Exfiltration Extortion Demands,'' February 1, 2021, available at: 
https://www.coveware.com/blog/ransomware-marketplace-report-q4-2020.
    \2\ CNBC, ``The extortion economy: Inside the shadowy world of 
ransomware payouts,'' April 6, 2021, available at: https://
www.cnbc.com/2021/04/06/the-extortion-economy-inside-the-shadowy-world-
of-ransomware-payouts.html.
    \3\ Emsisoft Malware Lab, ``The State of Ransomware in the US: 
Report and Statistics 2020,'' January 18, 2021, available at: https://
blog.emsisoft.com/en/37314/the-state-of-ransomware-in-the-us-report-
and-statistics-2020/.
---------------------------------------------------------------------------
    These figures illustrate that in just a few years ransomware has 
grown from a nuisance to a National security threat. And it is not just 
a problem for the United States. Organizations around the world have 
been targeted by ransomware.\4\ As has also been well established, 
these threat actors operate from safe havens, countries whose 
governments are mostly unwilling as well as unable to support efforts 
to bring them to justice. Given the size of this threat, reducing its 
impact in one country is not possible without the assistance of others. 
Likewise, even if the United States and partner nations reduce 
ransomware in their own jurisdictions, without significantly limiting 
this threat at scale, there is little guarantee it will not simply 
emerge elsewhere, presenting an on-going risk to the global community.
---------------------------------------------------------------------------
    \4\ Sophos, ``The State of Ransomware 2020,'' May 2020, available 
at: https://www.sophos.com/en-us/medialibrary/Gated-Assets/white-
papers/sophos-the-state-of-ransomware-2020-wp.pdf.
---------------------------------------------------------------------------
    an international, collaborative effort must form to reduce the 
                           ransomware threat
    The Ransomware Task Force convened to address this growing 
international challenge. The breadth of the challenge informed the Task 
Force's first priority recommendation. Specifically, coordinated 
international diplomatic and enforcement efforts must make clear that 
ransomware is an international national security and law enforcement 
priority and that an international coalition should be developed to 
combat it. Governments should also develop a comprehensive, resourced 
strategy that uses both carrots and sticks to reduce the number of 
countries providing safe havens. In doing so, governments can build on 
the 2020 G7 finance minister's statement in further signaling publicly 
the urgency of this threat. But as the Task Force's other 
recommendations make clear, governments must also work collaboratively 
among themselves and with the private sector to share information, 
jointly investigate, and bring these actors to justice or otherwise 
eliminate their ability to operate with impunity.
    For the United States, the Task Force recommends that this 
collective and collaborative action be driven by a whole-of-Government 
strategy, led by the White House. Such a strategy should also include a 
Joint Ransomware Task Force to coordinate an on-going, Nation-wide 
campaign against ransomware and identify and pursue opportunities for 
international cooperation. This joint interagency task force should be 
empowered at the appropriate levels to use all instruments of National 
power, and it should prioritize ransomware threats to critical 
infrastructure. In conducting its work, the interagency task force 
should also collaborate closely with relevant private-sector 
organizations that can help defend against and disrupt ransomware 
operations, such as security vendors, platform providers, information 
sharing and analysis organizations, and cybersecurity nonprofits.
    The Task Force further recommends the development of a Ransomware 
Threat Focus Hub that can also support existing, informal efforts. The 
Hub can serve as a central, organizing node for informal networks and 
collaboration of a sustained public-private anti-ransomware campaign. 
In addition, to support the Hub's and its participants' ability to 
disrupt the ransomware life cycle, the Task Force also recommends that 
the Departments of Justice and Homeland Security provide further 
clarity on the scope of defensive measures entities may undertake 
pursuant to the Cybersecurity Information Sharing Act of 2015.
   the scope and quality of information about ransomware must improve
    In order to develop and support this international strategy and its 
domestic elements, and through such a strategy eliminate safe havens, 
members of the Task Force believe that better information is necessary 
to enable this collective action. It is important to emphasize that 
this is not just more information sharing of cyber threat indicators, 
or indicators of compromise (IOCs), as they are also called. Both the 
scope and quality of information must improve. For example, IOCs should 
be tied to ransomware incidents, and this information must get into the 
hands of those who can use it--within the government as well as outside 
it. IOCs also need to be supplemented with additional information about 
ransomware incidents, including payments.
    Due to the limited and inconsistent nature of information about 
ransomware incidents, the Ransomware Task Force also recommends that 
national governments encourage organizations that experience a 
ransomware attack to voluntarily report the incident. Furthermore, the 
Task Force recommends that should a victim elect to pay the ransom they 
be required to share details with the government in advance of such 
payment. At a minimum, the notification should include the ransom date, 
demand amount, and payment instructions (e.g., wallet number and 
transaction hashes). Gathering and analyzing this information is 
essential not just for law enforcement but also for incident responders 
and insurers, who can deploy additional analytic tools that may help 
cybersecurity firms prevent the next incident as well as allow insurers 
to pursue payment recovery, including through subrogation.
    This information is necessary but insufficient to fully combat this 
threat. Organizations, both their leadership as well as those in 
operational roles, need to better understand that ransomware is a real 
and relevant threat and have better guidance on how to prioritize 
mitigation efforts given limited resources. To address this knowledge 
gap, the Task Force recommends that a framework be developed to help 
organizations better prepare for and respond to ransomware attacks, 
together with materials to support framework implementation such as 
tool kits and other how-to resources. Importantly, this framework 
should include customized recommendations based on each organization's 
current capacity to implement the recommendations. Following the 
success of the Cybersecurity Framework, the Task Force recommends that 
the National Institute of Standards and Technology convene an effort to 
develop this ransomware framework, in collaboration with international 
counterparts. The development of tool kits and other how-to materials 
are a necessary complement to ensure wide-spread adoption of the 
ransomware framework. GCA (and other organizations, I am sure) is ready 
to add such guidance to our existing resources to assist organizations 
in reducing their ransomware risk.\5\
---------------------------------------------------------------------------
    \5\ Global Cyber Alliance Blog, ``Combatting Ransomware: A Call to 
Action,'' April 29, 2021, available at: https://
www.globalcyberalliance.org/combatting-ransomware-a-call-to-action/.
---------------------------------------------------------------------------
     establishing response and recovery funds and expanding grant 
 availability can support victims and disrupt the ransomware business 
                                 model
    Resources for implementation are essential to the success of the 
ransomware framework and through it the disruption of the ransomware 
business model. To address this need, the Task Force recommends that 
governments establish Response and Recovery Funds. These funds should 
cover the cost, for example, of restoring systems for victims that 
serve essential functions including local governments as well as 
critical national functions. The Task Force believes that the 
availability of these funds will help reduce the number of victims 
electing to pay the ransom demand. As an incentive for organizations to 
invest in cybersecurity, governments could consider requirements to 
access the fund, such as demonstrating use of the ransomware framework 
to ensure a commitment to a baseline level of cybersecurity.
    In addition, the Task Force recommends that more grant funding be 
available to use for cybersecurity. For example, Homeland Security 
Preparedness Grants could be expanded to address cybersecurity threats. 
Additional grants, along the lines established by the Help America Vote 
Act, could also be made available to States through which they could 
manage delivery of funds to municipalities. Not only would these 
investments reduce cybersecurity risks, they will also enhance State, 
local, Tribal, and territorial resilience as upgrading software and 
hardware are often the most cost-effective security investments 
organizations can make. As with Response and Recovery Funds, access to 
these grants could be conditioned upon demonstrated alignment with the 
ransomware framework following its development. Elements of the State 
and Local Cybersecurity Improvements Act, which passed the House of 
Representatives last session, could serve as a baseline effort to 
address these recommendations.
    On a personal note, I'd like to emphasize the importance of these 
grants. A dollar spent to prevent a crime will be more effective than a 
dollar spent to recover from it. Moreover, some grant funding should be 
focused on prevention mechanisms that can be used by many and work at 
scale rather than requiring every grantee to reinvent the wheel.
                               conclusion
    Combating ransomware is important because it is threatening large 
sections of the U.S. and global economy including health care services 
and schools. Left unchecked, its rapid growth is threatening national 
security, and payments associated with it are supporting a number of 
societal harms including human trafficking and the development of 
weapons of mass destruction. To combat this challenge, the Ransomware 
Task Force believes that the previously described recommendations 
together with other actions detailed in its report will, when 
implemented collectively, significantly reduce ransomware in the coming 
years.
    In cybersecurity it is not often the case that one player can also 
fulfill another's role--we each have unique roles and bring unique 
capabilities. The Task Force offered a range of actions that could be 
taken building upon these unique capabilities, including with nonprofit 
resources, to stem this burgeoning threat. In closing, I want to 
highlight the essential role nonprofits played in the development of 
the Task Force's recommendations and that they can play in its 
implementation. Nonprofits may develop policy recommendations, support 
information sharing, and in the case of GCA, provide guidance on the 
implementation of established cybersecurity best practices including to 
combat ransomware. Nonprofits depend on contributions from a range of 
stakeholders to fulfill their unique and important roles. What is most 
important is that more action be taken by all stakeholders.
    Thank you again for the opportunity to testify today. I welcome 
your questions and comments.

    Ms. Rice. Thank you for your testimony. I now recognize Mr. 
Goulet to summarize his statement for 5 minutes.

    STATEMENT OF DENIS GOULET, COMMISSIONER, DEPARTMENT OF 
INFORMATION TECHNOLOGY, AND CHIEF INFORMATION OFFICER, STATE OF 
  NEW HAMPSHIRE, AND PRESIDENT, NATIONAL ASSOCIATION OF CHIEF 
  INFORMATION OFFICERS, TESTIFYING ON BEHALF OF THE NATIONAL 
           ASSOCIATION OF CHIEF INFORMATION OFFICERS

    Mr. Goulet. Thank you, Chairwoman Clarke, Ranking Member 
Garbarino, distinguished Members of the subcommittee, for 
inviting me today to speak on the cybersecurity challenges 
facing----
    Ms. Rice. Can everyone hear? Mr. Goulet? Mr. Goulet? Can 
you either get closer to the microphone? We are having a hard 
time hearing you.
    Mr. Goulet. Better?
    Ms. Rice. Yes, if you could just speak up, that would be 
great.
    Mr. Goulet. Thank you, Chairwoman Clarke, Ranking Member 
Garbarino, distinguished Members of the subcommittee, for 
inviting me today to speak on the cybersecurity challenges 
facing State and local governments. As commissioner of the 
Department of Information Technology in New Hampshire and the 
president of NASCIO, I am grateful for the opportunity to 
discuss cybersecurity, efforts to mitigate ransomware attacks, 
as well as highlight the vital role that State information 
technology agencies play in providing critical citizen 
services, ensuring the continuity of Government.
    Cybersecurity has remained the top priority for State CIOs 
for the past 8 years. My State and across the country we are 
observing a shift among Government leaders treating 
cybersecurity as a continuity of Government issue. But while we 
used to be concerned with theft of data and personally 
identifiable information, the nature and scope of cyber attacks 
today are aimed at crippling the functioning of our Government. 
Recent attacks on water treatment facilities and hospital 
systems have shown us how these incidents have progressed from 
digital consequences to sophisticated strikes designed to 
threaten the health and safety of our Nation's citizens.
    We have observed that ransomware incidents are 
disproportionately affecting the LTT part in State, local, 
territorial, and Tribal governments. The question of why the 
Federal Government is not contributing to the cybersecurity of 
the States is straightforward as States are the primary agents 
for the delivery of a vast array of Federal programs and 
services.
    A lack of adequate resources for cybersecurity continues to 
be the most significant challenge facing State and local 
governments. State CIOs are tasked with additional 
responsibility, including providing cybersecurity assistance to 
local governments, doing so with shortages in both funding and 
cyber talent. The 2020 NASCIO Cybersecurity Study found that 
only 36 percent of States and territories have a dedicated 
cybersecurity budget and nearly a third have seen no growth in 
those budgets.
    Almost all CIOs are directly responsible for the 
cybersecurity in their State and have initiatives to improve 
their cybersecurity posture. These programs are crucial as 
Congress considers the implementation of a cybersecurity grant 
program for State and local governments. Key elements include a 
centralized approach to cybersecurity; adoption of a 
cybersecurity strategic plan and framework; development of a 
cyber disruption response plan; and implementation of regular 
security awareness training for employees and contractors.
    For the past decade, NASCIO has advocated for a whole-of-
State approach to cybersecurity. We define this approach as 
collaboration among State agencies and Federal agencies, local 
governments, the National Guard, the education sector, critical 
infrastructure providers, and private-sector partners. By 
approaching cybersecurity as a team sport, information is 
widely shared and each stakeholder has a clearly-defined role 
to play.
    My colleagues across the country have significantly 
increased our involvement in fighting ransomware, especially 
with our local government partner. We have taken on additional 
responsibilities and incurred new expenses while continuing to 
face an unrelenting cyber threat environment.
    I am truly concerned about how crucial IT and cybersecurity 
will be funded in coming months and years. While COVID relief 
legislation has provided opportunities for some States to 
improve their cybersecurity posture, the pandemic has amplified 
vulnerabilities in State and local networks.
    I know I speak for all of my colleagues around the country 
when I say that a dedicated Federally-funded cybersecurity 
grant program, like the State and Local Cybersecurity 
Improvement Act, is overdue and will strengthen our ability to 
defend ourselves from cyber attacks.
    Since the Act would also require State legislatures to 
match a portion of Federal grant funds, it would provide an 
increased incentive for State legislatures to make cyber an on-
going priority in every State's budget.
    I look forward to continuing to work with the Members of 
this subcommittee in the creation of a program to improve our 
cybersecurity. This concludes my formal testimony. I look 
forward answering your questions. Thank you.
    [The prepared statement of Mr. Goulet follows:]
                   Prepared Statement of Denis Goulet
                         Wednesday, May 5, 2021
    Thank you, Chairwoman Clarke, Ranking Member Garbarino, and the 
distinguished Members of the subcommittee for inviting me today to 
speak on the numerous cybersecurity challenges facing State government 
that have been amplified during the COVID-19 pandemic. As commissioner 
for the Department of Information Technology in New Hampshire and the 
president of the National Association of State Chief Information 
Officers (NASCIO), I am grateful for the opportunity to discuss 
cybersecurity, efforts to mitigate ransomware attacks, as well as 
highlight the vital role that State information technology (IT) 
agencies have played in providing critical citizen services and 
ensuring the continuity of government throughout the current public 
health crisis.
              state cybersecurity overview and challenges
    As president of NASCIO, I am honored to represent my fellow State 
chief information officers (CIOs) and other State IT agency leaders 
from around the country here today. While some of my testimony will be 
based on my experiences as CIO in New Hampshire for the past 6 years, I 
will also be providing the members and staff of the subcommittee with 
National trends and data from NASCIO's 2020 State CIO Survey and the 
2020 Deloitte-NASCIO Cybersecurity Study.
    It may come as little surprise to you that cybersecurity has 
remained the top priority for State CIOs for the past 8 years. In my 
State and across the country, I have seen a palpable shift among 
government leadership that IT and cybersecurity are not simply regarded 
as a technology problem but a key tenet to the continuity of our 
government. While we used to be concerned only with the theft of data 
and personally identifiable information (PII), the nature and scope of 
cyber attacks today are aimed at crippling the entire functioning of 
our government. Recent attacks on water treatment facilities and 
hospital systems have shown us how these incidents have progressed from 
digital consequences to sophisticated strikes designed to threaten the 
health and safety of our Nation's citizens.
    The threat environment we face is incredibly daunting with State 
cyber defenses repelling an estimated 50 to 100 million potentially 
malicious probes and actions every day. State and local governments 
remain attractive targets for cyber attacks as evidenced by dozens of 
high-profile and debilitating ransomware incidents. The financial cost 
of these attacks is truly staggering with a recent report from Emsisoft 
finding that ransomware attacks in 2019 impacted more than 960 
government agencies, educational institutions, and health care 
providers at a cost of more than $7.5 billion.
    Lack of adequate resources for cybersecurity has been the most 
significant challenge facing State and local governments, even prior to 
the COVID-19 pandemic. As State CIOs are tasked with additional 
responsibilities, including providing cybersecurity assistance to local 
governments, they are asked to do so with shortages in both funding and 
cyber talent.
    The question of why the Federal Government should be contributing 
to the cybersecurity of the States is straightforward as States are the 
primary agents for the delivery of a vast array of Federal programs and 
services. A lack of budgeting at the State level for cybersecurity is 
also a significant impediment. The 2020 Deloitte-NASCIO Cybersecurity 
Study found that only 36 percent of States and territories have a 
dedicated cybersecurity budget and nearly a third have seen no growth 
in those budgets. The study also found that State cybersecurity budgets 
are typically less than 3 percent of their overall IT budget, which is 
far less than Federal agencies and financial institutions.
    NASCIO has long encouraged State government officials to establish 
a dedicated budget line item for cybersecurity as a subset of the 
overall technology budget. While the percentage of State IT spending on 
cybersecurity may be much lower than that of private sector industry 
and Federal agency enterprises of similar size, the line item can help 
State IT leaders provide the State legislature and Executive branch 
leaders the right level of visibility into State cybersecurity expenses 
in an effort to rationalize spending and raise funding levels. State 
legislation could demand visibility into cyber budgets at both the 
State and individual agency levels. In addition, the Deloitte-NASCIO 
Cybersecurity study results indicate that Federal and State 
cybersecurity mandates, legislation and standards with funding 
assistance result in more significant progress than those that remain 
unfunded. While we still have a long way to go, I greatly appreciate 
legislative efforts by numerous Members of this subcommittee to 
encourage State legislators to begin budgeting for cybersecurity.
                       a whole-of-state approach
    More than 90 percent of CIOs are responsible for their State's 
cybersecurity posture and policies. In collaboration with their chief 
information security officers (CISOs), whose role has expanded and 
matured in recent years, CIOs have taken numerous initiatives to 
enhance the status of the cybersecurity program and environment in 
their States. I believe these initiatives are also fundamentally 
crucial as Congress considers the implementation of a cybersecurity 
grant program for State and local governments. Some of these key tenets 
include: A centralized approach to cybersecurity, the adoption of a 
cybersecurity strategic plan and framework based on the NIST 
Cybersecurity Framework, the development of a cyber disruption response 
plan and the implementation of regular security awareness training for 
employees and contractors.
    One key initiative is the whole-of-State approach to cybersecurity, 
which NASCIO has advocated for over the past decade. We define the 
whole-of-State approach to cybersecurity as collaboration among State 
agencies and Federal agencies, local governments, the National Guard, 
education (K-12 and higher education), utilities, private companies, 
health care, and other sectors. By approaching cybersecurity as a team 
sport, information is widely shared and each stakeholder has a clearly 
defined role to play when an incident occurs. Additionally, many States 
who have adopted the whole-of-State approach have created State-wide 
incident response plans. According to our 2020 CIO survey, more than 79 
percent of State CIOs have implemented a whole-of-State approach in 
their States, are in the process of implementing or planning to 
implement.
    Crucially, numerous State IT agencies are conducting cyber incident 
training and incident response exercises with these partners to ensure 
they are able to quickly operationalize their incident response plans. 
One example of this type of training is the inaugural State-wide Cyber 
Summit for Local Governments that we held in New Hampshire earlier this 
spring. We had over 250 local government attendees from towns, cities, 
counties, and school districts with Federal participants from CISA and 
the Secret Service. Regular cyber exercises not only increase cyber 
awareness across all levels of the State but foster key relationships 
and trust among officials allowing for a more successful and rapid 
response when an incident occurs.
    In August 2019, more than 2 dozen local governments, education 
institutions, and critical infrastructure systems in Texas were struck 
by debilitating and coordinated ransomware attacks. However, it was the 
successful collaboration and cooperation among Federal, State, and 
local officials--a whole-of-State approach combined with a detailed 
cyber incident response plan--that prevented these attacks from 
succeeding. In fact, as Amanda Crawford, Texas CIO and executive 
director of the Texas Department of Information Resources, testified 
before the Senate Homeland Security and Governmental Affairs Committee 
in February 2020, all impacted entities were remediated within 1 week 
after the attacks.
                     state and local collaboration
    As the Texas ransomware attacks illustrate, under-resourced and 
under-staffed local governments continue to remain an easy target for 
cyber attacks. Due to the combination of a whole-of-State approach to 
cybersecurity and the proliferation of numerous high-profile ransomware 
attacks across the country, State CIOs have significantly increased 
collaboration with local governments to enhance their cybersecurity 
posture and resilience. In fact, more than 76 percent of CIOs reported 
increased collaboration and communication with local governments in the 
last year.
    In 2020, NASCIO released a research paper with the National 
Governors Association focused on State and local collaboration titled 
``Stronger Together.'' As Congress considers the components of a State 
and local cybersecurity grant program, I would urge you to incorporate 
some of the conclusions from that paper. This includes encouraging 
States to continue building relationships with local governments and 
helping States raise awareness for IT and cybersecurity services 
offered to local governments.
    Additionally, Congress should assist State and local governments 
with more easily purchasing cybersecurity tools and services through 
existing models at the Federal level. Streamlining the procurement of 
cybersecurity services would also expedite a currently bureaucratic 
process and result in significant cost savings.
                       partnership with dhs cisa
    In terms of partnerships with Federal agencies, I do want to 
highlight State IT's growing partnership with the Department of 
Homeland Security's Cybersecurity and Infrastructure Security Agency 
(CISA). While this relationship is still in its infancy, CIOs and CISOs 
appreciate the cybersecurity resources, services, and guidance provided 
by CISA. NASCIO has and will continue to support efforts to define 
CISA's roles and responsibilities more clearly in assisting State and 
local governments. We've also endorsed Federal legislation to increase 
CISA's resources within each State. This includes the recent passage 
and enactment of S. 3207, the Cybersecurity State Coordinator Act, 
which will ensure greater continuity between the efforts of States and 
the Federal Government. It will also provide a stronger State voice 
within CISA, helping them to better tailor their assistance to States 
and localities.
    Additionally, NASCIO was a strong advocate of the DOTGOV Act, which 
was included in the omnibus Government funding bill signed into law in 
December 2020. The DotGov Act transferred ownership of the DotGov 
Program from the General Services Administration to CISA, which 
officially took place last month, and reinforced the important 
cybersecurity aspect of domain registration. I want to praise CISA and 
the DotGov Office for their announcement last week to waive all fees 
for new DotGov registrations. The $400 annual fee had been a 
significant barrier of adoption for local governments, who remain most 
vulnerable to misinformation and disinformation campaigns. With less 
than 10 percent of all eligible local governments currently on DotGov, 
NASCIO looks forward to continuing our work with CISA to better improve 
the cybersecurity of local governments. Now more than ever, it is 
essential to ensure the American people are receiving accurate and 
authoritative information from their Government websites.
    dedicated cybersecurity funding for state and local governments
    I would again like to reiterate my appreciation to this 
subcommittee for its attention to cybersecurity issues impacting State 
and local governments. The 116th Congress focused significantly on 
these issues and introduced numerous pieces of legislation endorsed by 
NASCIO. In particular, I look forward to continuing to work with the 
Members of this subcommittee to ensure the passage of a State and local 
cybersecurity grant program.
    Currently, cybersecurity spending within existing Federal grant 
programs, including the Homeland Security Grant Program, has proven 
challenging in the face of declining Federal allocations, increased 
allowable uses and a strong desire to maintain existing capabilities 
that States have spent years building. In fact, less than 4 percent of 
all Homeland Security Grant Program funding has been allocated to 
cybersecurity over the last decade.
    NASCIO urges the reintroduction and passage of the bipartisan State 
and Local Cybersecurity Improvement Act, a $400 million annual grant 
program for State and local governments to strengthen their 
cybersecurity posture. This legislation would require grant recipients 
to have comprehensive cybersecurity plans and emphasizes significant 
collaboration between CISA and State and local governments. The 
legislation would also allow State and local governments to make 
investments in fraud detection technologies, identity and access 
management technologies and implement advanced cybersecurity frameworks 
like zero trust. We would also be able to invest in cloud-based 
security services that continuously monitor vulnerabilities of servers, 
networks, and physical networking devices.
    Passage of the State and Local Cybersecurity Improvement Act would 
provide vital resources for State IT agencies, meaning my fellow CIOs 
and I would not have to compete against other agencies and States. 
Ultimately, a specific cybersecurity grant program would allow us to 
better assist our local government partners and address threats from 
well-funded nation-states and criminal actors that continue to grow in 
sophistication. As I mentioned earlier in my testimony, NASCIO also 
supports provisions within this legislation that would ensure State 
governments are budgeting for cybersecurity.
    We also greatly appreciate the recent passage of the American 
Rescue Plan Act (ARP), which includes $350 billion in flexible aid to 
State and local governments. While we await guidance from the 
Department of the Treasury on allowable expenditures, I believe the ARP 
will create significant resources for States to invest in legacy 
modernization, cybersecurity improvements, and broadband expansion over 
the next 3 years.
                               conclusion
    When COVID-19 spread across the country last March, my fellow State 
CIOs and I faced enormous challenges to ensure wide-spread remote work 
was manageable and secure. This was made even more difficult in States 
that did not have a culture of remote work. Working with our private-
sector partners, we adapted to a nearly universal remote environment 
almost overnight.
    We expedited lengthy, bureaucratic acquisition processes, deployed 
AI-powered chatbots to assist overburdened State agencies and assisted 
school districts with virtual learning. We implemented numerous digital 
Government initiatives to improve how citizens interact with their 
State government websites, a crucially important project as citizens 
relied more than ever on State services and authoritative information 
sources.
    CIOs also implemented COVID-19 testing websites, contact and 
exposure notification applications and now, vaccine websites.
    In New Hampshire, we have taken numerous measures to improve the 
cybersecurity posture of our entire State--including with the education 
and health care sectors. New Hampshire recently passed legislation that 
mandated the establishment of ``Minimum Standards for the Privacy and 
Security of Student and Employment Data.'' Through a cooperation with 
the State, our schools have established a Student Data Privacy 
Agreement, which participating districts ask vendors to sign, in order 
to comply with the ``Minimum Standards.'' We've also furthered our 
partnership between the State CISO and the New Hampshire Chief 
Technical Officer Council on issues relating to cybersecurity and 
privacy.
    On the health care front, the New Hampshire Information and 
Analysis Center routinely distributes cybersecurity alerts and 
advisories to health care entities within New Hampshire from the State 
and Federal Government. A recent debilitating ransomware attack on a 
hospital system in a neighboring State was also a real awakening for 
many hospital operators in New Hampshire. It helped them to understand 
that ransomware can have a profoundly destructive impact on their 
ability to operate and treat patients, as well as understand that a 
centralized approach to cybersecurity is superior to the more 
decentralized and permissive approach employed by some organizations.
    In closing, as president of NASCIO, I know I speak for all my 
colleagues around that country that a Federally-funded cybersecurity 
grant program for State and local governments is long overdue. There 
can be no doubt that State governments need to change their behavior 
and begin providing consistent and dedicated funding for cybersecurity 
moving forward. It is my hope that the States will follow the lead of 
the Federal Government in this area, especially if grant programs 
require them to match a portion of Federal funds. I look forward to 
continuing to work with the Members of this subcommittee in the 
creation of a grant program to improve the cybersecurity posture for 
our States and local governments.

    Ms. Rice [presiding.] Thank you for your testimony. I now 
recognize Mr. Krebs to summarize his statement for 5 minutes.

  STATEMENT OF CHRISTOPHER C. KREBS, PRIVATE CITIZEN, FORMER 
   DIRECTOR OF THE CYBERSECURITY AND INFRASTRUCTURE SECURITY 
          AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Krebs. Chairwoman Clarke, Congresswoman Rice, Ranking 
Member Garbarino, Members of the subcommittee, it is my 
pleasure to appear before you today to discuss much-needed 
efforts to combat ransomware. Given my recent experience as 
CISA director, I remain on a bit of a personal and professional 
crusade to raise attention and drive toward disruptive 
solutions to this growing National security threat.
    I would like to start with why we are here. In 2011, famed 
Silicon Valley innovator and entrepreneur Marc Andreessen 
famously penned in a Wall Street Journal piece that ``software 
is eating the world.'' A decade later, if left unchecked, 
ransomware will similarly eat the world. This is not a problem 
that is going to go away or solve itself. The last several 
years alone show that cyber criminals are not only getting 
better, they are diversifying and they are specializing and 
they are getting more brazen. To put it simply, we are on the 
cusp of a global digital pandemic driven by greed, a vulnerable 
digital ecosystem, and an ever-widening criminal enterprise.
    The underlying enabling factors for this cyber crime 
explosion are rooted in the digital dumpster fire of our 
seemingly pathological need to connect everything to the 
internet combined with how hard it is to actually secure what 
we have connected. Two more recent factors have thrown fuel on 
the already smoldering heap: The spread of cryptocurrencies 
that enable the transfer of funds largely outside the eyes of 
financial regulators and corrupt safe havens that don't mind if 
a little crime happens on their turf as long as it brings home 
some revenue, directs malicious on-line activities elsewhere, 
and has the added benefit of making life more difficult for 
strategic adversaries.
    It is important to reinforce that cryptocurrency in and of 
itself is not a criminal enterprise nor do I currently believe 
eradicating or regulating it to the point of uselessness is the 
answer. The challenge is to appropriately intervene to avoid 
societal harms while fostering a marketplace for technologies 
like cryptocurrency where we can both lead in innovation and 
maintain a globally competitive edge.
    We have seen some glimpses of an appetite to address the 
ransomware crisis with the recent announcement of the 
Department of Justice ransomware-focused initiative and the 
Department of Homeland Security's ransomware 60-day sprint. 
These efforts build on prior efforts from the Secret Service, 
FBI, CISA, and other organizations. Critically, there are also 
indications that the White House is considering a more 
strategic approach on the ransomware front soon.
    But last week was perhaps the most promising development 
with the Ransomware Task Force releasing its report. The task 
force identified where the real policy and operational gaps 
lie. First, the need for prioritization across the National 
security structure. Second, greater ransomware-focused 
operational public-private collaboration. Third, chokepoints in 
the cryptocurrency payments kill chain. Fourth, in addressing 
the challenges facing the cybersecurity insurance industry.
    Perhaps the area with greatest need for Government 
investment, however, is not necessarily within the Federal 
Government, but, as Mr. Goulet pointed out, within our State 
and local partners. The idea is simple. We can reduce a tax 
surface across State, local, Tribal, and territorial government 
organizations in this country by investing in more modern 
systems. In doing so, we can improve citizen services for all 
Americans, create more tech jobs in our communities, and 
continue to invest in today's and tomorrow's technology 
innovators. It is a way to defend against today's threats while 
investing in a secure tomorrow.
    Ultimately, whatever the administration and Congress choose 
to do, there is no single solution or silver bullet. No one 
organization alone will solve this problem. Much like 
confronting election security threats or disinformation more 
broadly, there are a range of levers that Government and 
industry can pull to achieve positive outcomes.
    I would like to thank the committee for holding this timely 
hearing. I would also like to thank you for your leadership and 
constant enduring support of CISA. I look forward to your 
questions.
    [The prepared statement of Mr. Krebs follows:]
               Prepared Statement of Christopher C. Krebs
                              May 5, 2021
                              introduction
    Chairwoman Clark, Ranking Member Garbarino, Members of the 
subcommittee, it is my pleasure to appear before you today to discuss 
much-needed efforts to combat ransomware. My name is Christopher Krebs 
and I previously served as the first director of the Cybersecurity and 
Infrastructure Security Agency (CISA), leading CISA and its predecessor 
organization, the National Protection and Programs Directorate, from 
August 2017 until November 2020. Over the last several years, I have 
had the pleasure of working with many of you as Members of the primary 
oversight committee for CISA and have testified in front of the 
committee several times.
    It is an honor to appear before this subcommittee to testify about 
the threat ransomware poses to countless organizations across this 
Nation. Given my recent experience as CISA director, and now as 
founding partner of the Krebs Stamos Group, a cybersecurity risk 
management consultancy, as well as the Newmark Senior Cyber Fellow at 
the Aspen Institute, I am continuing my commitment to improving the 
Nation's cybersecurity and resilience.
    In 2011, famed Silicon Valley innovator and entrepreneur Marc 
Andreessen famously penned in a Wall Street Journal piece that 
``software is eating the world.''\1\ A decade later, cyber criminals in 
the form of ransomware gangs have come around for their piece of the 
action. Considered a low-dollar, on-line nuisance crime only a few 
short years ago, ransomware has exploded into a multi-billion-dollar 
global racket that threatens the delivery of the very services so 
critical to helping us collectively get through the COVID pandemic. To 
put it simply, we are on the cusp of a global pandemic of a different 
variety, driven by greed, an avoidably vulnerable digital ecosystem, 
and an ever-widening criminal enterprise.
---------------------------------------------------------------------------
    \1\ Marc Andreessen on Why Software Is Eating the World--WSJ.
---------------------------------------------------------------------------
    As we have spent the last several months debating appropriate 
responses to Russian and Chinese cyber activities, cyber operations 
that most Americans will not see any direct impact, ransomware, on the 
other hand, has continued to affect our communities. According to the 
2020 Verizon Data Breach Report, Ransomware accounts for 27 percent of 
malware incidents, with the highest rate of occurrence in the 
education, health care, and Government administration sectors.\2\
---------------------------------------------------------------------------
    \2\ 2021 Verizon Data Breach Report, Figure 5., pg 7. Available for 
download here.
---------------------------------------------------------------------------
    Cyber criminals have been allowed to run amok while governments 
have mainly watched from the sidelines, unclear on whether cyber crime 
is a National security-level threat. If there was any remaining doubt 
on that front, let's dispense with it now: Too many lives are at stake. 
We need a different approach, and that shift is needed now. We have 
risen to the challenge in the past and can do it again.
                the context for the ransomware explosion
    The underlying enabling factors for this cyber crime explosion are 
rooted in the digital dumpster fire of our seemingly pathological need 
to connect everything to the internet combined with how hard it is to 
actually secure what we have connected. Two more recent factors have 
thrown fuel on the already smoldering heap: The spread of 
cryptocurrencies that enable the transfer of funds largely outside the 
eyes of financial regulators, and corrupt safe havens that don't mind 
if a little crime happens on their turf as long as it brings home some 
revenue, directs malicious on-line activities elsewhere, and has the 
added benefit of making life more difficult for strategic adversaries.
    It is important to reinforce that cryptocurrency in and of itself 
is not a criminal enterprise, nor do I think eradicating or regulating 
it to the point of uselessness is the answer. Like many other 
transformational technology developments, cryptocurrency has likely 
crossed a threshold where it is here to stay. In fact, in many markets, 
cryptocurrency and similar financial technology developments represent 
a promising future for technological innovation. Therefore, the 
challenge is to appropriately intervene to avoid societal harms while 
fostering a marketplace for technologies like cryptocurrency where we 
can both lead in innovation and maintain a globally competitive edge.
    Even if software and services were more secure, the allure of a 
quick buck and no real repercussions means the forward-looking 
prospects for ransomware actors are quite good. But we do not even have 
good metrics on how good the market is, as there's no real 
clearinghouse of authoritative sources of information on the number of 
victims there are. The best source in fact may be to just ask the 
criminals themselves (and I'm not going to take their word for it)--
they'll likely offer you cyber hygiene and security advice in their 
response.
    Ransomware crews have been propelled and professionalized by 
commodity malware and specialization across various hacking techniques. 
The sophistication of the actors is impressive--it is not just a single 
gang running entire operations. Different groups of criminals have 
developed focused capabilities or access in different aspects of the 
heist and collaborate as they see fit to get the job done. This allows 
for a commoditization of the ``kill chain,'' creating further 
opportunities to elude law enforcement and dance around international 
financial rules and regulations.
    And while these gangs have become more sophisticated, governments 
have been sluggish in responding in a meaningful way. As a result, 
victims are often left to fend for themselves, turning to specialty 
incident response firms that have developed a niche industry for 
negotiating decryption. The costs of lost productivity, disrupted 
operations, inefficiency in markets, and operational recovery likely 
far outweigh the dollars siphoned out of the world's economies and 
dumped into illicit activities from human trafficking to the 
development of weapons of mass destruction. That's right--this malware 
has afforded Kim Jung Un's ability to continue to expand his nuclear 
arsenal. How is this still only viewed as a cyber crime?
    For a few years, I have been stumping for a more coordinated 
approach across industry and Government that can bring defenders 
together, break the payment chain, and put some consequences on the bad 
guys either directly or have their landlords do it. But much like 
countering disinformation (and frankly cybersecurity in general), 
because of the cross-cutting nature of the problem, spanning different 
Government agencies with different authorities, with often competing 
priorities and mission sets, National governments to include the United 
States have struggled to make meaningful progress.
         confronting the growing ransomware national emergency
    We have seen some glimpses of appetite to address the ransomware 
crisis with the recent announcement of the Department of Justice (DOJ) 
ransomware-focused initiative, and the Department of Homeland 
Security's ransomware 60-day sprint. This builds on efforts by the 
United States Secret Service, the Federal Bureau of Investigation 
(FBI), CISA, industry efforts like the National Cyber Forensics and 
Training Alliance, among others. Critically, there are indications that 
the White House is considering a more strategic approach on the 
ransomware front soon.
    Ultimately, whatever the administration and Congress chooses to do, 
there is no single solution or silver bullet. No one agency alone will 
solve this problem. Much like confronting election security threats or 
disinformation more broadly, there are a range of levers that 
Government and industry can pull to achieve positive outcomes. And 
there are past successes in operational collaboration that can be built 
on to ensure future success. For example, drawing on the lessons 
learned from the Russian efforts to interfere in the 2016 election, a 
coalition of agencies, including CISA, the National Security Agency 
(NSA), the FBI, and others, built a playbook that first prioritized 
effective coordination across Federal, State, and local government 
agencies. Second, increasing Federal support and resources to election 
security stakeholders to improve defenses and response. And third, 
engaging the adversary to learn more about their operations but also 
disrupt activities where possible.
    The secret sauce to our election security efforts were the clear 
acknowledgement that multiple agencies had the ability to contribute to 
the ultimate outcome and we all recognized that the greater good was 
more important than any individual agency's ``turf'' concerns. The 
United States along with our allies need to take a new, more strategic 
and coordinated approach to overcoming the emerging National security 
emergency posed by ransomware. Similarly, the counter ransomware 
``triplet'' includes improving cyber defenses, disrupting the 
criminals' business model, and increased coordinated action against 
ransomware gangs and their enablers. This strategy will require 
Government and the private sector to contribute and commit to 
partnering together to break the ransomware cycle.
Improving Defenses
    First, we must improve defenses of our businesses and agencies 
across all levels of government. Ubiquitous use of multifactor 
authentication (MFA) for access to networks can limit credential abuse, 
updated and patched systems can prevent actors from exploiting known 
vulnerabilities, and a well-practiced incident response plan 
accompanied by backed up and off-line systems can enable rapid reaction 
and restoration. In many cases, even these straightforward steps are 
beyond the reach of many companies or State or local agencies. We need 
to rethink both our approach to technology deployment, including MFA by 
default, and the Federal Government should consider increasing 
technology upgrade grants to States and localities to retire legacy 
systems and join the digital transformation.
Disrupting the Ransomware Business Model
    Second, we must break the business model of ransomware. Simply put, 
ransomware is a business, and business is good. The criminals do the 
crimes and their victims pay the ransom. Often it seems easier (and 
seemingly the right thing to do from a fiduciary duty to shareholders 
perspective) to pay and get the decryption key rather than rebuild the 
network. There are 3 problems with this logic: (1) You are doing 
business with a criminal and expecting them to live up to their side of 
the bargain. It is not unusual for the decryption key to not work. (2) 
There is no honor amongst thieves and no guarantee that the actor will 
not remain embedded in the victim's network for a return visit later, 
after all the victim has already painted themselves an easy mark. (3) 
By paying the ransom, the victim is validating the business model and 
essentially making a capital contribution to the criminal, allowing 
them to hire more developers, more customer service, and upgrade 
delivery infrastructure. And, most worrisome, go on to the next victim.
    We must address the ransomware business model head on and disrupt 
the ability of victims to pay ransom. We need to prioritize countering 
ransomware as a Nation. That includes appropriately investing in our 
Government agencies and their ability to investigate, disrupt, and 
apprehend criminals. We need to do more to understand the ransomware 
economy and the various players in the market. And at the points where 
cryptocurrency intersects with the traditional economy, we need to take 
action to provide more information, more transparency, and comply with 
the laws that are already on the books. This includes Kiosks, Over the 
Counter trading desks, and cryptocurrency. Last, we don't know enough 
about the ransomware economy, as it operates in the shadows. We lack a 
clear understanding of the scale of the problem, including the number 
of victims of ransomware--the denominator we are trying to improve 
against.
    There are different ways to do gain better insight into the 
ransomware economy, including requiring anyone paying a ransom (as a 
last resort, of course) to notify the Government and provide specific 
details. There is an alternate model, where to make a payment to an 
identified (in this case an officially-sanctioned organization) victims 
or their agents must seek a license or similar permission from the 
Government prior to making that payment. The Department of Treasury 
Office of Foreign Asset Control (OFAC) began down this track last year, 
declaring ransom payments to identified entities may be a violation of 
economic sanctions laws. Because the identity of the ransomware actor 
is not always obvious, the OFAC advisory may have an overall chilling 
effect on ransom payments.
More Aggressive Action Against Ransomware Actors
    Third, we need more coordinated action against ransomware actors 
using the range of authorities available to Federal agencies, as well 
as capabilities and rights resident in the private sector. To be clear, 
I am not suggesting extrajudicial kinetic actions against ransomware 
gangs. However, other authorities available to law enforcement and 
military should be on the table, with great care taken not to blur the 
lines between the two. Traditional approaches have clearly not been 
sufficient to prevent the outbreak of ransomware. More aggressive and 
repeated disruption of malware command and control infrastructure, like 
the action earlier this year against Emotet, is a good start.\3\ Where 
there are clear ties between ransomware actors and State actors or a 
potential imminent threat to an event or infrastructure of significance 
like a National election, action should be on the table. The private 
sector also has options available, as demonstrated by Microsoft's 
aggressive policing the abuse of its trademark and source code, 
including last fall's operation against Trickbot.\4\ When coordinated 
and jointly conducted, private and public sector can make the internet 
an inhospitable place for cyber criminals.
---------------------------------------------------------------------------
    \3\ Emotet Botnet Disrupted in International Cyber Operation/OPA/
Department of Justice.
    \4\ New action to combat ransomware ahead of U.S. elections--
Microsoft On the Issues.
---------------------------------------------------------------------------
Collective Action Against Ransomware
    Last week was perhaps the most promising development in the fight 
against ransomware, with the Ransomware Task Force releasing its 
report.\5\ The Task Force, a collaboration of more than 60 experts in 
cyber policy, software engineering, and academia, lays out a 
comprehensive set of recommendations that all players in the IT 
ecosystem can take. The report is 81 pages packed with evidence, 
analysis, and practical/actionable recommendations. It's clear that 
they've identified where the real policy and operational gaps lie: The 
need for prioritization across the National security structure, for 
greater ransomware-focused operational public-private collaboration, 
chokepoints in the crypto payments kill chain, and in addressing the 
challenges facing the cyber insurance industry.
---------------------------------------------------------------------------
    \5\ Combating Ransomware--A Comprehensive Framework for Action: Key 
Recommendations from the Ransomware Task Force 
(securityandtechnology.org).
---------------------------------------------------------------------------
    Perhaps most importantly, the report calls for a coordinated 
strategy with real leadership from Government and industry. This is a 
critical step forward--a clear commitment to lead from the front, to 
ensure the various agencies and actors are working in concert. It's not 
just enough for the Government to coordinate itself, it needs to 
coordinate priorities, actions, and investments with the private 
sector. These actions can include taking disruptive steps against cyber 
criminals. Ultimately, the attack surface is not the Federal.
    The RTF also calls for standing up an international coalition, 
something that has existed principally in law enforcement channels, and 
should fold in defensive teams as well as intelligence agencies. We 
have shown time and time again that information sharing is most 
effective when the people that can act on the information--regardless 
of whether they are in industry or in Government--actually have that 
information.
    The RTF, importantly, calls for additional support to businesses 
and Government agencies preyed on by ransomware actors. This support 
necessarily includes boosting preventative measures, but also sets out 
a set of actions that everyone can take to help victims work through an 
attack, and only as a last resort make payments, and even in such an 
undesirable event, requiring reporting and tracking. Maybe then we will 
get good sense of how big this problem really is and more effectively 
build out the tools that are needed to respond on the time scales these 
criminals operate on. If the U.S. Treasury is expected to facilitate 
incident reporting, identify suspicious activity, coordinate with law 
enforcement, and assist private-sector victims all within the window of 
the extortion threat, they deserve the tools and resources they need to 
move with that kind of agility and speed. The same goes with the FBI 
and DOJ officers tasked with executing court orders to seize crypto 
wallets, or the team at CISA helping coordinate, respond, or work with 
State and Local authorities in advance to better defend their networks. 
Without these additional tools and resources, the criminals will 
continue to exploit these seams with impunity.
    Last, for the RTF's recommendations to really take hold, the 
administration and Congress need to start putting together a 
legislative package to enable the additional authorities and 
appropriations recommended by the group. Again, there is a clear road 
map for cyber-related law, recently trail-blazed by the Cyberspace 
Solarium Commission, another group that tackled thorny cyber problems 
and was able to get dozens of new cyber provisions passed into law. In 
fact, there are a range of recommendations that already fit well into 
options the Solarium is considering as it continues developing further 
legislative proposals.
    The Ransomware Task Force should be commended for their work over 
the last 4 months. They showed initiative and commitment and have 
delivered an actionable road map for helping us get through our current 
digital crisis. We have tackled and overcome challenges as great as 
this before, we can do it again. I encourage the administration to take 
the recommendations on board and implement quickly, together with 
private industry, and I similarly encourage the Congress to consider 
smart legislative action.
Increasing Funding for State and Local Government Agencies
    Perhaps the area with the greatest need for Government investment 
is not necessarily within the Federal Government, but within our State 
and Local partners. I recently wrote an op-ed on this subject with a 
former CISA-colleague, Matt Masterson.\6\ The idea is simple, we can 
reduce attack surface across State, local, Tribal, and territorial 
Government organizations in this country by investing in more modern, 
cloud-based systems. In doing so, we can improve citizen services for 
all Americans, create more tech jobs in our communities, and continue 
to invest in today's and tomorrow's technology innovators. No, we are 
not going to defend our way out of the ransomware problem, but we can 
close out many existing vulnerabilities, and gain additional benefits 
along the way. It is a way to defend against today's threats, while 
investing in a more secure tomorrow.
---------------------------------------------------------------------------
    \6\ Congress needs to help modernize our digital infrastructure/The 
Hill.
---------------------------------------------------------------------------
    As Congress considers and debates various infrastructure investment 
packages, I respectfully encourage consideration of cyber and 
technology specific funding. Everything we do these days in some way is 
somehow enabled by the technologies around us. Even as we have all made 
dramatic shifts in the way we see our friends and family, work, 
worship, and entertain ourselves in this new pandemic-era, the 
underlying infrastructure in our communities may struggle to keep up in 
the coming years. The difference between the haves and the have nots 
will be even starker, as many Government agencies will see a reduction 
in tax revenues due to the economic impacts of COVID.
                               conclusion
    In this era of surging ransomware, modernizing State and local IT 
systems is not just good Government--it is a National security 
imperative. Investment and support of State and local cyber 
infrastructure is an investment in our democracy, our judicial system, 
law enforcement, and the privacy and security of our citizens. Our 
adversaries allow cyber criminals and their own State-supported hackers 
to operate from their own sovereign territory, disrupting citizen 
services and stealing money and intellectual property from U.S. 
governments and businesses alike. It is time to step up and provide all 
partners inside and outside Government with the support and resources 
they need to effectively defend themselves.
    I would like to thank the committee for holding this timely 
hearing. I would also like to thank you for your leadership and support 
of CISA. I look forward to your questions.

    Ms. Rice. Thank you, Mr. Krebs. Our Chairwoman will be back 
in a few minutes, so I think what I am going to do is ask 
Congressman Garbarino to begin his 5 minutes of questioning.
    Mr. Garbarino. OK. Thank you very much, Congresswoman Rice.
    Mr. Krebs, thank you very much. I love that we both used 
the silver bullet analogy. That was very good. We have similar 
speechwriters, I guess.
    You touched about this a little in your opening, but, as 
you know, over the past few years there has been a robust 
discussion about the need for a State and local cybersecurity 
grant program. While no one here will disagree that an increase 
in funding is vitally needed, we also need to ensure that these 
funds are spent responsibly and in a way that meaningfully buys 
down risk. I know you have to have the buy-in from the State 
and locals, but can you talk about specifically the role CISA 
needs to play in providing the State and local governments with 
the cybersecurity guidance and expertise?
    Mr. Krebs. Yes, sir. Thank you for that question. I do 
think we share some staff perhaps, some of my former staff at 
least.
    So, I think we should step back a little bit and think 
about where we are from a legislative perspective right now. 
There is a lot of conversation in both chambers of the Congress 
about infrastructure and infrastructure investments. I think 
that this is a great opportunity to rethink, at least 
strategically, about what an infrastructure investment package 
looks like.
    Everything we do today in our communities, in our society, 
in our economy has some sort of connectivity to it. It has some 
sort of attack surface from a cybersecurity perspective. So all 
infrastructure investments should include a consideration for 
modernizing the underlying IT systems as well as security 
aspects of that.
    So my concept is let us do a 21st Century Digital 
Infrastructure Investment Act that will allow State CIOs and 
community CIOs, like Mr. Goulet, not just buy cybersecurity 
technologies, but get off some of the dated legacy systems that 
they have that, you know, tend to have higher recurring 
operations and maintenance costs; that in some cases cannot be 
updated and are no longer supported. That was kind-of my point 
about it will increase citizen surfaces, it will be more 
resilient to attack, it will increase tech jobs in our 
communities, and ultimately it will plow money back into U.S. 
tech companies, which will keep us at the cutting edge of the 
technology sector.
    Now, CISA can play a role in advising State and locals, in 
helping administer a grant program either within CISA to help 
dole out those grant funds or work with an existing State grant 
program like over at FEMA and provide that technical expertise. 
We have done that in the past. CISA has done that in the past 
with some of the State and Homeland Security grant program 
fundings. So, there is the expertise there, the mechanisms are 
there. I think the infrastructure, so to speak, for a grant 
program is in place at CISA as well as at FEMA. So now it is 
just a matter of authorizing the program and then providing 
sufficient funds.
    Mr. Garbarino. I thank you very much for that answer. Mr. 
Goulet, would you agree with what Mr. Krebs was saying or would 
you like to expand on any other roles that you think CISA could 
provide to State and local governments?
    Mr. Goulet. Yes. Well, first of all, I wholeheartedly agree 
on the legacy system comments. The State of New Hampshire 
recently conducted an independent cyber risk--a comprehensive 
cyber risk assessment, and the findings came back 
overwhelmingly pointing at legacy systems where, you know, 
where we found vulnerabilities. In fact, we ended up shutting 
down some of our citizen casing systems temporarily while we 
mitigate those, and so that actually motivated the agency in 
question to, you know, to look harder and prioritize more 
effort at addressing that.
    We are so happy with the partnership with CISA we have 
seen. You know, we love the collaboration and we intend to 
continue that and leverage it further and provide our input as 
well in terms of, you know, how we can work better together. 
So, we very much look forward to that.
    Mr. Garbarino. Great. I appreciate that. I have some other 
questions, but I will do a quick one because I only have 30 
seconds left and it is for everybody and I think it is just a 
yes or no, if you can be rapid, and some of you touched on it. 
Should ransomware payments be made illegal? The members of the 
IST Task Force were conflicted on this.
    Jump in whenever you want. Wow.
    Mr. Krebs. This is a tough one. I am going to hedge on 
this. I would say the minimum--I think we should--payments 
should be made at a very last possible resort. If payments are 
made, they should in some way be either licensed or logged and 
reported to the Government. We, frankly, just don't have the 
denominator on all the victims and it is hard to really control 
the rest of it from there.
    Mr. Garbarino. I appreciate that. Thank you.
    Chairwoman Clarke. I thank the gentlelady from New York for 
stepping in momentarily on my behalf. We are all juggling 
hearings during this time, so I truly appreciate it.
    I will now recognize myself for questions. Mr. Goulet, 
currently cybersecurity is a permissible use of funds awarded 
under the State Homeland Security Grant Program and the Urban 
Area Security Initiative. I was pleased to see that Secretary 
Mayorkas announced earlier this year that recipients would need 
to dedicate at least 7.5 percent of their award toward 
cybersecurity.
    However, in your testimony, you emphasized that there is a 
need for a separate dedicated cybersecurity grant program. Can 
you elaborate on why existing grant programs are inadequate for 
ensuring State and local governments develop the kind of 
comprehensive cybersecurity improvements necessary for 
combatting ransomware?
    Mr. Goulet, I think you have to unmute.
    Mr. Goulet. You know, we applied for grants each time in 
New Hampshire. In fact, we have used that grant money to 
develop our cyber disruption plan in the State of New Hampshire 
that is a strong plan. But around the States, myself and my 
colleagues and the CISOs in the States, receive a very small 
percentage of the total grant funding that goes through that 
program. The amounts that we are able to access are not 
adequate to the task.
    Chairwoman Clarke. Understood. Ms. Stifel, one of the 
recommendations of the Ransomware Task Force is the creation of 
response and recovery funds. We have seen similar proposals 
from the Solarium Commission and in the President's budget 
request. What kind of entities do you believe should be 
eligible for assistance under these funds and under what 
circumstances and what kinds of expenses would be covered?
    Ms. Stifel. Thank you, Madam Chairwoman, for the question. 
Yes, we, as you noted, agree that these types of funds need to 
be established.
    As far as the types of entities that could be recipients or 
eligible for these funds, in the first instance I would say 
those that we have identified previously in this conversation 
today, State, local, Tribal, territorial, as well as 
potentially organizations that are providing critical National 
functions. Therefore, as I know IT is currently working through 
identifying or has identified these essential function 
entities, they would also be, in our mind, an eligible 
recipient.
    As far as types of resources that could be--these funds 
could be put to, we have identified and I think I agree with 
other panelists who said that the legacy systems are a first 
priority. This is particularly the case in light of what we 
have been through over the past 18 months--or, excuse me, 14 
months with the pandemic. The decrease in taxes that are 
funneling to States and, therefore, even more constrained 
resources to put toward cybersecurity.
    So, we urge that the committee--you know, appreciative of 
the committee in putting forward or renewing your legislation 
from last session. Thank you.
    Chairwoman Clarke. Thank you. General Davis, when we talk 
about ransomware we hear about how it is a growing crisis and 
we see statistics showing an increasing number of attacks with 
larger financial impacts and more disruption. What existing 
efforts have you seen that are currently working to defend 
against or mitigate the impacts of ransomware? Are there 
examples of actions that organizations are taking that are 
reducing risk that can serve as a model for others?
    Mr. Davis. Thank you, Madam Chairwoman. Yes, I have a 
couple of thoughts about that and the fact that doing a lot on 
the front end, and even a little bit goes a long way, as we 
stated in the report.
    So, first of all, I will just say basics matter. In many 
cases, increasing security in a few key areas could make a 
significant difference in an effort to prepare for attacks. 
Complex security software or complete network rebuilds may not 
be required. Implementing things that we heard up front by one 
of the Congressmen was implementing multifactor authentication 
or adopting password managers. Those kinds of things can 
dramatically improve an organization's security posture.
    Although any organization, regardless of its security, 
could be a target for ransomware, improving baseline security 
and raising awareness among employees can go very far in 
protecting organizations from attack. There are some very basic 
human behavior-related actions that can help with the problem 
of phishing, which remains one of the most often used initial 
access methods for ransomware. So, I mean, just being 
suspicious of who is knocking on your digital front door and 
not answering it when you weren't expecting the visitor, so to 
speak, is a good way to look at some very basic things that can 
be done.
    In addition, technology, although not the single answer, 
can provide some both emerging capabilities as well as legacy 
capabilities that can help improve this fight. So there is a 
whole array of things that I believe can be used up front in 
order to help prevent a lot of what we are seeing from the 
ransomware threat in the first place.
    Chairwoman Clarke. Thank you very much for your response, 
General Davis. I now recognize the gentleman from South 
Carolina, Mr. Norman, for 5 minutes.
    Mr. Norman. Thank you, Madam Chairwoman, and thank all the 
ones that are testifying. I thank you for your time.
    Mr. Krebs, I was on a bank board for a number of years and 
they had a cyber attack. It was like pulling teeth to get them 
to, I guess, let the word out and to get help from others. They 
finally corrected it, but 2 questions.
    How can we get--and I understand the reason, because their 
stock price, the name, you know, their, I guess, relationship 
with customers that may be threatened if it had gotten out. But 
how do we--in your opinion, what will we do to have them at 
least get the word out and get help from a lot of different 
factors? This is, what, a $20 billion problem.
    Second, when an attack actually occurs, you know, if we 
have an emergency, we call 9-1-1. If you need the police, 9-9-
9, you know. If you need an ambulance, you know, we know the 
number to call. But what should a company do, No. 1, to get the 
word out and get help? No. 2, you know, what do they do when 
they are attacked? Because they are kind-of left holding the 
bag and not really knowing who to go to or what expert that 
could solve the problem. Can you shed some light on that?
    Mr. Krebs. Yes, sir. So, I think on your first question how 
do we get more organizations leaning forward and being more 
transparent about their events, I think things have perhaps 
gotten a little bit better in the last couple years, in part 
because some of the requirements for publicly-traded companies 
to file reports, public reports.
    We are also seeing, I think, a new breed or strain of 
corporate executives that perhaps have been through enough 
events and they recognize that being forthcoming and being 
transparent and being straight-up with your customers or 
clients actually benefits you in the long run. Really the idea 
here is that do you want to be straight-up with your customers 
or do you want to hide something from them and then they go 
away because they don't trust you? That trust is the coin of 
the realm and you have really got to protect that.
    So, I think in part we need to explore for at least those 
most critical infrastructures, as Megan Stifel mentioned, that 
there are some degree of--or some sort of requirements for them 
to make notifications at a minimum to the Federal Government 
and to law enforcement. But more broadly, we have to continue 
to reinforce with our friends in the executive community, 
boards of directors, that it is ultimately in their best 
interest to be a good corporate citizen and come forth.
    On your second piece, how do we get more prepared, well, 
that is actually probably the most important part right now. It 
goes to what General Davis said about that ounce of prevention, 
pound of cure. You know, there is, at least in FEMA, natural 
disaster calculations that a dollar invested up front in 
mitigation saves you $4 in incident response. The same thing 
applies here. The cost of responding to it, even if you pay the 
ransom, the cost of responding to a ransomware event are 
massive. It is not a guarantee you get everything back. So, it 
is all about preparation and planning.
    If you do have a bad day, because everybody has a bad day 
sometimes, do you know what to do? Do you know how to respond? 
Do you have a team on contract? Do you have relationships with 
CISA, with the FBI, with the intelligence community where you 
can get on top of this thing quickly as soon as you detect it 
and shut it down? So it is all about preparation and playbook 
planning.
    Mr. Norman. OK. Quickly, I guess this will be for anybody, 
I don't want to go over my time, but regulations. OMB had a--
GAO had a report that 49 to 76 percent of regulations are 
redundant when it comes to cybersecurity. What is your opinion 
on that? Again, say if it is problem, getting it cured, do you 
go to OMB? Who do you go to?
    Mr. Krebs, we will start off with you.
    Mr. Krebs. Yes, sir. So, I think we need to look at 
different levers we can pull here. The Federal Government has 
procurement powers, one of the largest procurers of, for 
instance, IT technologies. I think what we are probably going 
to see out of the White House with an Executive Order is 
increased and enhanced security requirements for software. That 
is going to have a trickle-down effect through the rest of the 
economy. But I still think that there are specific parts of the 
economy, those highest-risk, critical infrastructures, that 
have enjoyed an enormous amount of success in the economy and 
they have to step up from a corporate citizenship perspective 
and apply enhanced security requirements. That is an area to 
explore for regulation.
    Mr. Norman. Well, I am out of time and I don't want to take 
other time, but help us do that. Because you all are in a 
position to let us know.
    Thank you, Chairwoman Clarke, I yield back.
    Chairwoman Clarke. I now recognize Ms. Jackson Lee of 
Texas.
    Ms. Jackson Lee. Thank you very much, Madam Chair. This is 
Congresswoman Sheila Jackson Lee and I just want to make sure 
you all can hear me. Thank you to the Ranking Member for 
holding this hearing that is crucial and one that we have been 
immersed in for those of who have served on this committee for 
quite a long time.
    To each of the witnesses, very grateful for your 
presentations dealing with how we deal with ransomware. I 
remember being a Chair of the Transportation, Security, and 
Infrastructure Committee, which now is now the Cybersecurity 
Committee, and we were talking about the amount of cyber in the 
private sector, which at that time was 85 percent versus 15 
percent of governments. But what we really had come to find out 
is that we all are interrelated.
    So, let me focus my questioning. As I do so, let me 
acknowledge former Director Krebs of CISA. We are grateful 
certainly for your service and regret the fact that your work 
as head of CISA ended over your principled stand that the 
election was, in fact, a legitimate election and that you had 
seen and determined that there was no cyber fraud or any kind 
of fraud under your jurisdiction that would have countered the 
election of Joe Biden. Principles in Government I think is 
crucial and I want to particularly thank you for that.
    My work in the 117th Congress has included introducing H.R. 
119, the Cyber Defense National Guard Act; H.R. 118, the Cyber 
Vulnerability Disclosure Reporting Act; and as well H.R. 57, 
the DHS Cybersecurity Asset Protection of Infrastructure Under 
Terrorist Attack Logistical Structure Act, which is called the 
CAPITALS Act. I hope in this Congress we will be able to pass 
these legislative initiatives, in particular because they 
really deal with the vulnerabilities of the system at this 
time.
    I would like to pose to you, Director Krebs, because of 
your current past experience, if you will, dealing with this 
agency. What I recall is that you were very interested in 
standing this agency up and making it stronger. I would be 
interested in your understanding of the strength of the 
Ransomware Task Force and some of the provisions that it 
offered, but in the course of you saying that, I would like to 
know what Congress could do to strengthen this agency. I 
believe it should be given greater jurisdiction and support 
with resources. What ultimate role, how large a role do you 
believe the agency should play in combatting ransomware?
    We always say that the large amount, as I said earlier, of 
this cyber infrastructure is in the private sector. I believe, 
however, Government can be very effective in helping to steer 
that sector along with their cooperation.
    Director Krebs.
    Mr. Krebs. Yes, ma'am. Thank you for that and thank you for 
the kind words. It certainly was an honor of a career and of a 
lifetime to serve as director of CISA. But I will say that I am 
incredibly excited for the agency and for the nominee for the 
next director, Jen Easterly. I have known her for quite some 
time and she is an absolute rock star and she is going to do 
great things there, which brings me to your question about what 
more can we do here, what more can we do next?
    I think the last several years, particularly the National 
Defense Authorization Act of 2021 was very beneficial to CISA. 
In fact, I just read a letter or an article this morning that 
the agency has used its administrative subpoena authorities 
recently and that was something that I had asked for last 
Congress. It would allow the system to make notifications on 
vulnerable systems to IT providers. That is the sort of thing 
that can help.
    I think ultimately the area that CISA needs the most 
support from Congress in that we have seen in the previous 
support and we need to expand from here, what I would always 
say is the future of CISA is in the field. So, we have now 
State-wide coordinators or one in or on the way to at least 
every State capital to work with the State CIOs, to work with 
the election officials. That is an area that we need to 
consider continuing to do. So, we need not just 47 of them, we 
may need 150 of them because there is plenty of work out there 
for everyone to do.
    I also think we need to think about as we resource a grant 
program, what additional shared services can CISA provide? We 
see CISA providing shared services for the Federal Government 
through programs like Continuous Diagnostics and Litigation, 
the recently awarded Protected DNS Service, and also the 
hardened Cloud environment that CISA is going to provide for 
the Federal Government.
    Can CISA build a gold image almost Cloud service that 
States can use, get some economies of scale, get centrally 
monitored and logged? Those are the sorts of game-changing 
technologies that I think can really help manage security 
better.
    Ms. Jackson Lee. Thank you so very much. Thank you, Madam 
Chair. Thank you very much. I yield.
    Chairwoman Clarke. The gentlelady's time has expired. The 
Chair recognizes for 5 minutes the gentleman--I am sorry, the 
gentlewoman from Tennessee, Ms. Harshbarger, for 5 minutes.
    Ms. Harshbarger. Thank you, Chairwoman Clarke and Ranking 
Member Garbarino and all the witnesses. This is something 
really alarming. You know, when I read this report, 2,400 U.S.-
based Government health care facilities and schools that were 
victims, that is unbelievable.
    You know, when I was on another committee here, it seemed 
that our own Government, our Federal agencies can be hacked due 
to apps and upgrading or updating apps. That is a scary 
proposition to know that.
    I guess it is just a statement and then I can go to each 
one of the Members. As everybody knows, the cyber incident 
reporting has been a significant point of interest on 
significant cyber incidents. The committee is interested in 
better understanding the right combination of mandatory 
incident reporting with appropriate incentives.
    I guess, Mr. Krebs, I can start with you and open it up to 
the whole panel. Should our intelligence and law enforcement 
agencies be given carte blanche to take down the networks of 
people and organizations perpetuating ransomware?
    Mr. Krebs. I think that there is always a set of trade-offs 
when you talk about the intelligence community and their 
activities. I think they are historically focused on, you know, 
the exquisite threats, the intelligence capabilities. But I 
think what we are seeing, as evidenced by recent Department of 
Treasury sanctions, is that ransomware gangs and foreign 
intelligence services are working hand-in-glove. They are in 
fact taking direction. Evil Corp was a Russian crew that was 
taking direction from the FSB. Those are the linkages that we 
really need to explore. That to me I think is what really kind-
of tipped ransomware over into the clear National security 
threat. Once you have those linkages, I do think that opens up 
additional authorities for consideration by the Title 10 and 
Title 50 organizations.
    Ms. Harshbarger. Mr. Davis.
    Mr. Davis. Congresswoman, I agree with Chris Krebs on this. 
I will just tell you from the perspectives of my experience in 
Government, including now in the private sector, it is a blurry 
world out there in this murky cyber-related business between 
state and non-state actors. I believe that states now see an 
opportunity to leverage non-state entities in a variety of ways 
to fundamentally undermine and gain an advantage over Western 
democracies in general, not just the United States. This is in 
the area that you have covered in terms of misinformation and 
disinformation, but it is also in ways to circumvent sanctions. 
These have been through the specific capabilities associated 
with ransomware. We have seen various states now that have 
begun to embrace this idea of leveraging these other entities, 
criminal entities and others, in order to undermine democracy. 
I think that what we are seeing is this is just another reason 
why the task force has taken the position that you all seem to 
agree with, this is now a National security-related threat.
    Ms. Harshbarger. Absolutely.
    Mr. Goulet.
    Mr. Goulet. Well, I think that real time, as we are--our 
networks are being hammered by these actors, both, you know, 
the nations and the nation-states, as well as other actors. So 
the volume of that, if it continues to increase and our 
relative investment on the things that we need to do there to 
protect ourselves needs to increase. So we are absolutely right 
in the middle of that swirling mass of things. I think it is 
partly--it has been traditional because the State governments 
carry a lot of information that could be useful for our 
enemies. Also I think that--you know, there is so much 
important stuff happening at the Government level, whether it 
is State or local. Like, for--a great example would be, you 
know, a computer-aided dispatch that is being shut down by a 
law enforcement agency, you know, where that is--you know, or 
dispatching for ambulance, that kind of thing, which we have 
seen happen. It is really a big deal.
    You did mention incident reporting, which I wanted to touch 
on. I have legislation pending in New Hampshire that would 
mandate incident reporting in, you know, our political 
subdivisions to the State so that we can collaborate better. I 
have had a couple of occasions where I found out about an 
incident in school or a police department from the press versus 
from hearing about it and it is not a great way to collaborate.
    So I think, you know, going on that theme that, you know, 
it is not shameful to have a cyber incident happen to you. In 
fact, it has probably happened to almost every agency and we 
all need to, you know, be transparent, report, and respond 
better.
    Ms. Harshbarger. Absolutely.
    Well, I think my time is up. I yield back. Thank you.
    Chairwoman Clarke. Thank you.
    The Chair now recognizes for 5 minutes one of our 
preeminent experts in this space, all things cyber, the 
gentleman from Rhode Island, Mr. Langevin, for 5 minutes.
    Mr. Langevin. Very good. Thank you, Madam Chair, and thank 
you for organizing this important hearing today. I want to 
thank our witnesses for your testimony and great contribution 
to our efforts to try to better protect the country in cyber 
space and get around here on this vexing problem.
    So I wanted to begin of course by congratulating General 
Davis and Ms. Stifel and all the co-chairs of their Ransomware 
Task Force for the report. I believe it is an important 
document and a fine example of industry self-organizing to put 
forth important policy recommendations.
    This is an issue--cyber is something the Government can't 
solve on its own, private sector can't solve on its own, and it 
really needs to have that public-private partnership. It is 
great to see you acting as a resource.
    So let me begin--and I also of course want to thank Former 
Director Krebs for being here today. I want to echo the 
comments of my colleague from Texas in thanking you for your--
certainly your service at CISA and especially securing our 
elections.
    But so, Mr. Krebs, in your testimony you referenced the 
work of the this Solarium Commission as a model for making 
these recommendations a reality. One of the recommendations we 
got done last year--no small thanks to--no small part I should 
say--thanks to your help in so many in creating a Joint Cyber 
Planning Office at CISA. What role do you see for the JCPO in 
Ransomware Task Force recommendations?
    Mr. Krebs. So thank you for that, and good to see you 
again. As we heard from the Ranking Member, you know, twice in 
24 hours is a pretty good streak here.
    What needs to be done within the Federal Government right 
now, and this is frankly one of my greatest frustrations over 
the last 4 years, is we needed a strategic approach to 
countering ransomware given the fact that there are a multitude 
of agencies that have an authority, a lever, or some sort of 
influence they have over the problem set.
    So let us begin with the White House National Security 
Council stating that this is going to be a National security 
imperative to counter ransomware. So with that stage set you 
can declare whatever the policy is and then turn it over to an 
operational piece. There are a couple of operational pieces 
that already exist. You have the National Cyber Investigator 
Joint Task Force that the FBI hosts that runs campaigns, you 
have the National Cyber-Forensic and Training Alliance in 
Pittsburgh that also does some information sharing, but I think 
again we need to bring together the broader set of authorities 
from law enforcement to civil defensive agencies, civilian 
agencies, the IC and the Department of Defense. The JCPO could 
play a role there to coordinate operations.
    Mr. Langevin. Thank you. I appreciate the answer. I 
strongly support leveraging the JCPO to coordinate this kind of 
campaign planning in coordination with the National Cyber 
Director. I have been briefed several times by the Executive 
Assistant Director Goldstein on the stand up of the JCPO. I 
certainly believe it will be well-positioned to coordinate a 
whole-of-Government effort.
    So let me turn next to Ms. Stifel and General Davis. This 
subcommittee focuses a lot on CISA's Federal network defense 
role and we have closely monitored the Federal response to 
SolarWinds. However, CISA has a much broader responsibility to 
coordinate protection of critical infrastructure that I am 
concerned are significantly under-resourced.
    So the Cyberspace Solarium Commission has recommended 
increasing CISA's funding by $400 million next year to help 
increase operational capacity to address threats like 
ransomware. Do you support such an increase and do you believe 
it falls in line with the Task Force report?
    General Davis, I want to start with you and then Ms. 
Stifel.
    Mr. Davis. Sure, Congressman.
    I don't know about the specifics of it from a Task Force 
perspective. I do know that we--that the Task Force report 
specifically speaks about the role of DHS in a number of 
different areas. I believe there are, if I have it right, 10 of 
the recommendations across each of the 4 main--you know, deter, 
disrupt, repair, and respond--functions have what we recommend 
is a role either as a leading role or a supporting role for 
DHS. So in order to do this, you know, DHS and CISA 
specifically have really an over-sized role and they need the 
support--adequate support in terms of skills, capability, 
capacities, and authorities.
    So I would--I don't know what the right answer is, but I do 
believe that in order for DHS, and CISA specifically, to pick 
up the roles and responsibilities that we are recommending in 
these 10 various recommendations, it appears we are going to 
require commensurate resources, and that will be above and 
beyond what they currently have today.
    Mr. Langevin. Thank you. I know my time has run out, but, 
Ms. Stifel, do you have anything briefly?
    Ms. Stifel. I would agree with John. Thank you, 
Congressman, for the question. I do agree that additional 
resources are necessary for CISA to step into and mature into 
the organization that it needs to be in order to better protect 
the homeland.
    Mr. Langevin. Agreed. Thank you all. Appreciate that.
    I yield back.
    Chairwoman Clarke. Thank you, Congressman.
    The Chair now recognizes for 5 minutes the gentleman from 
Georgia, Mr. Clyde.
    Mr. Clyde. Thank you, Chairwoman Clarke, and Ranking Member 
Garbarino, for holding this very important hearing.
    In my district, though we are mostly a rural district, we 
had a very detrimental attack that occurred to a local 
manufacturing company, called ASI. That ransomware attack 
completely shut them down for almost 6 weeks. Though the ransom 
was only $100,000 in bitcoin, it cost them over a million 
dollars in hard cash to replace their systems in order to 
recover. So this a very, very serious issue, not just for 
Government entities, but for commercial entities as well.
    So my question goes to Mr. Krebs here. I was reading in the 
ransomware guide, which I thought was a pretty amazing 
document, that CISA offers a no-cost vulnerability scanning 
service and other no-cost assessments. So I followed the links 
in the guide to a document that further explained these no-cost 
cyber hygiene services, what they were, and they included 
vulnerability scanning, web application scanning, phishing 
campaign assessment, and remote penetration scanning, which I 
thought was very outstanding. From what I have read they are 
available to all agencies, Federal, State, local, Tribal, and 
territorial, as well as public and private-sector critical 
infrastructure organizations.
    So 2 things here quickly, how does CISA get this guide out 
and get the word out on these services, which I think are 
phenomenal? Can you explain how an entity would sign up for 
them? Then how would you also determine what a critical 
infrastructure entity is in the private sector?
    Thank you.
    Mr. Krebs. Yes, sir.
    So what you have highlighted here was one of my biggest 
concerns. There is a great deal of technical acumen and 
expertise at CISA, really good cyber expertise. Marketing on 
the other hand was never a real area of strength. That goes 
back to my earlier point of the future of CISA is in the field. 
One of the greatest ways that--the best ways to engage with our 
stakeholders, which are not all the time, at least in the 
Beltway, is to get out there and mingle in their community. As 
a Georgia native I know your district quite well, spent a lot 
of time up there playing sports and all that good stuff. But we 
would need somebody that would be in that area that would be 
meeting with the State and local representatives, that would be 
meeting with the critical infrastructure. Then just from a 
critical infrastructure perspective, we tend to know what the 
riskiest stuff is out there, but a lot of it is self-selection. 
Again, it is marketing, marketing, marketing. It is customer-
centricity, it is getting out there with constant engagement 
and asking what do you need.
    Mr. Clyde. OK. Great. Thank you.
    The question about what determines whether an entity in the 
private sector is critical infrastructure or not, do you guys 
make that determination yourself, or is there something that 
you go on, a definition that you go on?
    Mr. Krebs. So critical infrastructure in the United States 
is anything from banks to bridges, schools to sewers. It is a 
broad categorization that would lead an organization into a 
partnership, a voluntary partnership with CISA.
    There are critical infrastructures that at greatest risk 
can be identified and tagged by CISA. There is no, you know, 
regulatory requirement necessarily that goes along with that, 
but it tends to be a self-sorting mechanism that brings 
organizations in to work with us.
    Mr. Clyde. OK. If any private-sector organizations choose 
to work with you, I assume that CISA gives them the complete 
confidence that any data that they share, anything that is--is 
held in complete confidence with CISA.
    Mr. Krebs. We have a pretty good track record. Yes, sir. Or 
at least as I was there prior, of not sharing or leaking or 
disclosing information about partners. There are some 
regulatory protective measures, the Protected Critical 
Infrastructure Information Program that actually has criminal 
penalties on Federal employees that disclose information.
    Mr. Clyde. OK. That is great to know. Thank you.
    One last question, you made a comment about chokepoints 
across the cryptocurrency. Because I think cryptocurrency, you 
know, it is a common denominator in all ransomware, because 
that's how they get paid.
    So can you talk a little bit about chokepoints? How we can 
improve chokepoints maybe and make cryptocurrency harder for 
people to use anonymously?
    Mr. Krebs. Well, so I think the way I would characterize it 
is you have the up points of leverage where the cryptocurrency 
economy intersects with the conventional economy. It is in 
kiosks, it is over the counter desks, it is exchanges. Any time 
that you are taking bitcoin, you are buying bitcoin, or trading 
it out, those are areas that you can actually say, look, you 
have to comply with financial regulations, know your customer, 
anti-money laundering. The Task Force does a fantastic job of 
laying out some of those issues.
    The thing that we have to be careful about is 
cryptocurrency is one of those technologies that has crossed 
the threshold in my view. It is here to stay. In fact, there 
are other emerging--you know, in China cryptocurrency is way, 
way, way ahead of where we are in the United States. If they 
are likely--it is going to be, you know, the future of 
financial transactions. So rather than cut it off and strangle 
it, we need to figure out how to get the outcomes we want, 
positive societal outcomes, while reducing and minimizing. I 
think that is the area that Congress needs to spend a lot of 
time policy-wise thinking about.
    Mr. Clyde. Thank you very much.
    Chairwoman Clarke. The gentleman's time has expired. Thank 
you. Thank you for your questions, Mr. Clyde.
    The Chair now recognizes for 5 minutes the gentlewoman from 
New York, Ms. Rice.
    Ms. Rice. Thank you so much, Madam Chair.
    I do hope that we take the recommendations that the 
Ransomware Task Force made and incorporate it into some kind of 
legislation as quickly as possible because what I am hearing 
from both sides of the aisle during this hearing is that the 
recommendations are good, especially, you know, making the 
United States lead by example and execute a sustained, 
aggressive, whole-of-Government, intelligence-driven, anti-
ransomware campaign that is coordinated by the White House in 
the 4 ways they--or the 3 ways that they mentioned because that 
is critical. We have to have one mission, we have to have a 
specific way to execute that.
    Mr. Krebs, just a couple of questions that I would like to 
direct to you. There were 560 ransomware attacks on U.S. health 
care facilities in 2020 in the middle of this pandemic. I am 
sure that you would qualify health care facilities as critical 
infrastructure. I would just like to get your opinion on what 
we can do to ensure--and, by the way, the pandemic I think made 
clear that there is a fundamental connection between strong 
public health infrastructure and strong National security. So I 
want, you know, your thoughts on that.
    In my district in 2019 as part of an attack that targeted 
several school districts around Long Island and New York, 2 
school districts in my district were targeted by cyber 
criminals and had all of their data held for ransom. One 
district had all of its data backed up off-line and didn't need 
to make the ransom payment to the attackers, but unfortunately 
the other was forced to pay nearly $100,000 to regain access to 
its data.
    I guess they would be going back to do you criminalize the 
payment of ransomware, but also is there best practices that 
say school districts--like one of them knew to keep this stuff 
off-line, the other did not and had to make the payment. What 
are your thoughts on that?
    Also I just really wanted to get into the cryptocurrency 
issue again. I mean we have been talking about this--in all my 
years on Homeland Security, talking about cryptocurrency and 
the use of cryptocurrency by terrorists, but now it is becoming 
much more accepted and daily used form of payment for not just 
terrorists, but here we are with ransomware and, as you say, 
every day in China and it is going to become much more 
ubiquitous.
    So your thoughts on that as well.
    Mr. Krebs. OK. So, OK, there is bitcoin, there are schools, 
and there are hospitals. On the hospitals point, in the middle 
of COVID, your number 560, that is at least what we know. One 
of the biggest problems we have right now in cyber crime and 
ransomware specifically is we don't actually know--we don't 
have confidence and granularity on the actual denominator 
because there is a lot of lack of reporting. So we need to work 
through how do we get a better fidelity on the numbers of 
actual victims. So the Ransomware Task Force had some 
recommendations on requirements for paying for ransom. Because, 
you know, school setting is an opportunity is for CISA and the 
Department of Education, both at the Federal and the individual 
State levels, to work together to develop best practice and 
guidance. I think that is under way over the last several 
months to pull that together.
    Last, happy to come in and bring some experts in to talk 
about Bitcoin, but this is--or cryptocurrency, rather, more 
broadly. Again, we need to think about, you know, boosting 
innovation and reducing the harms.
    Last point I want to make here though is that based on my 
experience in leading CISA, the budget process and the 
appropriations process is critically important on seeking the 
outcomes that you want as Congress. When you dedicate specific 
resources sufficiently to tackle a problem, for instance 
election security, then that allows us to put surge resources 
to that problem. So if ransomware is a priority, then you need 
to think about what is it going to take from a unit type cost 
perspective to achieve the outcomes you want so that there can 
be hiring, there can be certainty in contracting, there can be 
other resources acquired and brought in.
    I am telling you right now, the approach we took to 
election security is but one of the critical infrastructure 
sectors. In fact, 1 of 55 National critical functions. It 
required a significant amount of focus and personnel and 
resources, but it can be repeated. We can repeat that same 
model to counter ransomware. But, again, you can't just say, 
hey, you guys have to do this now out of your existing budget. 
We have to put resources against it and it will get done. I 
promise you that.
    Ms. Rice. Well, I couldn't agree with you more.
    I want to thank all of the witnesses here today because 
with a brain trust like you helping legislators like us, I 
don't know how we can't get this done. We just have to get 
behind it in a nonpartisan way and get the job done.
    Madam Chairman, I yield back. Thank you so much.
    Chairwoman Clarke. I thank the gentlelady.
    Let me just address an issue to remind Members that 
pursuant to House rules Members are required to be on camera 
when recognized during committee proceedings. Members may be 
allowed to participate without video where they are having 
technical difficulties.
    Having said that, I would like to now recognize for 5 
minutes the gentleman from New York, Mr. Torres, for 5 minutes.
    Also inform colleagues that we will likely have a second 
round of questions for our witnesses, so those of you who may 
have additional questions, there will be a second round 
following Mr. Torres.
    Mr. Torres, the floor is yours.
    Mr. Torres. Thank you, Madam Chair.
    According to Cybersecurity Ventures, the cost of cyber 
crime has been on an exponential curve, with $3 trillion in 
2015 to a projected $6 trillion in 2021, to a projected $10.5 
trillion in 2025. According to Third Way, almost all cyber 
crime goes unpunished with less than 1 percent resulting in 
enforcement action.
    My first question concerns prevention and it is directed 
toward Mr. Krebs. In your professional judgment, would 
protective DNS services be effective at preventing most 
ransomware breaches?
    Mr. Krebs. Most ransomware breaches, I think that is hard 
to say. I think it would certainly be an effective way to 
detect malware on a network. And help minimize any sort of 
further compromise.
    Mr. Torres. What about the efficacy of multifactor 
authentication?
    Mr. Krebs. Well, that is just--that is table stakes. This 
is one of the biggest problems right now that we are seeing I 
think in State and local communities--and I would love to hear 
Mr. Goulet's perspective--but some of these State and local 
organizations, Tribal and territorial as well, don't have the 
resources to shift off of some of their legacy systems and 
don't have the staff to implement a multifactor authentication 
regime. They rely on single-factor authentication, like 
passwords that are easily brute force, password sprayed, and 
things like that. I think we need to give them the resources to 
make that shift, but we also need to put additional pressure on 
some of the technology companies that are providing the 
services and say, look, MFA, multi-factor authentication, by 
default has to be the new normal.
    Mr. Torres. A quick question about reporting. If a Federal 
contractor were to make a ransom payment using Federal funds, 
would the contractor be required to report the incident to the 
Federal Government?
    Mr. Krebs. I am not clear right now on some of the Federal 
acquisition regulation requirements on that. But I mean if it 
is not, it certainly should.
    Mr. Torres. You know, it seems to me that the scandal is 
not only that we are failing but in many ways we are not even 
trying. Most State and local governments have no separate line 
item for cybersecurity, which tends to be buried in the larger 
IT budget. My understanding is that State and local government 
on average dedicate only 1 to 3 percent of their IT budget on 
cybersecurity.
    In your estimation, what percentage of a State or local 
government's IT budget should go toward cybersecurity?
    Mr. Krebs. Percentages of overall IT spend dedicated to 
cybersecurity is a metric that sometimes gets thrown around as 
a good way to measure. I don't think it is always that helpful 
because you could spend 15 percent of your budget on stuff that 
doesn't do anything for you. So it is about are you investing 
in the right things, like multifactor authentication. I think 
for State and local, I think getting to the cloud, you know, 
getting off of your on premises exchange servers, segmentation 
of your networks, recovery, incident response planning and 
exercises. I think those are 4 or 5 of the things that I would 
put a lot of focus on.
    Mr. Torres. I know the Task Force on Ransomware has put 
forward 48 recommendations. I suspect many of those 
recommendations are familiar proposals that have percolating 
for a long time. I am curious now what historically has been 
the greatest barriers to the implementation of those 
recommendations and what can be done to break down those 
barriers. This question is for both General Davis and Megan 
Stifel.
    Mr. Davis. Thank you, Congressman. I will go first while 
Megan is considering her response.
    There are a lot of good things that are out there that 
exist today. I think part of the problem though is that, No. 1, 
I was in the prepare working group. I was a co-chair in that 
working group as well. What we came to the conclusion was that 
for a variety of reasons organizations, especially the smaller 
ones, both in the public and the private sector, were either 
unaware of or there was a failure to adopt it for a number of 
reasons. That is why one of the--in my opinion, one of the 
biggest recommendations that we made was to come up with this 
framework, this internationally-accepted, accessible, practical 
framework of the best practices that exist out there today so 
that this information can be made available.
    In terms of adoption, part of the challenge with adoption 
was the aspect of--especially at a smaller organizational 
level, when you only have so many dollars, it seems that most 
of the business decision making is done concerning availability 
when it comes to information systems and not security.
    So part of the recommendations we made was also to get 
after that audience of business decision makers to arm them 
with the information that would enable them to make better risk 
management decisions within the context of the business and not 
simply IT decisions.
    Then just from the general perspective, I think a lot of 
the reasons why some of the good things that are out there just 
aren't adopted as wide-spread as they could be is the fact that 
it has been stovepipe and piecemeal, and there is a lot of 
noise that needs to be sifted through.
    So I think our approach is this full court press with, you 
know, all of these required participants in order to solve some 
of those challenges.
    Ms. Stifel. I am happy to respond. The time has expired, 
but I would agree----
    Chairwoman Clarke. Yes, the gentleman's time has expired 
and we are going to enter into a second round of questioning. 
So I just wanted to--if you can just hold your comments and you 
can probably tack it on a response to some additional 
questions.
    I now recognize myself for the beginning of the second 
round of questioning.
    My next question goes to General Davis and you, Ms. Stifel. 
The Ransomware Task Force report observes that there is a lack 
of reliabile representative data about ransomware scope and 
scale. DHS has long worked to incentivize cyber information 
sharing with somewhat mixed results.
    How can the Federal Government best incentivize State, 
local, and private-sector entities to share timely, actionable 
information about ransomware incidents?
    Mr. Davis. Madam Chairwoman, I will be brief since I hogged 
the last question and didn't give Megan a chance to answer.
    But I will just say that from the perspective of the Task 
Force, information sharing--threat intelligence sharing and 
information sharing was seen as absolutely critical and that 
there is a lot of good work that has been done, especially with 
the Cybersecurity Information Sharing Act of 2015. All we are 
recommending is that that be reviewed with an eye toward 
ransomware specifically. There are some new indicators of 
compromised and contextual information specifically around 
ransomware that we believe can be integrated into the existing 
regimes to make improvements where required.
    Chairwoman Clarke. Ms. Stifel, your impressions? I know you 
wanted to jump onto the last question.
    Ms. Stifel. So first I would say with respect to 
information sharing, agree with John that a great deal of work 
has gone into and been successful in enhancing that capacity 
over the past 5 years. Still I think there is an opportunity 
for enhanced awareness around the importance of this 
information, especially as it relates to ransomware, but also 
of the incentives, so to speak, that are offered to entities 
that do share information with the Government. I think there 
are still, you know, hesitance and that can be reduced through 
a range of opportunities, including valued members of the panel 
with me in highlighting the value of sharing information.
    On the last piece, I think part of the challenge relates to 
knowing that there is a strategy. Improving the ability, again, 
to highlighting the real threat that ransomware has become and 
ensuring that the available resources that exist are known to 
entities that meet them when they need to respond to them, as 
well as to help better prepare them.
    Chairwoman Clarke. Very well. Thank you for your response.
    Mr. Goulet, the COVID-19 pandemic highlighted how dependent 
we are on technology across Government and business. In 
particular, we saw how under investment in State IT budgets 
strained the ability of Americans to access certain programs, 
such as enhanced employment benefits.
    How has the pandemic affected States' risk to ransomware 
and how could a ransomware attack impact a State's ability to 
distribute Federal benefits to residents?
    Mr. Goulet. Well, thank you.
    Well, with the, what I call the Diaspora, with all the 
people, you know, moving home to work early last year, where 
the attack surfaces for any cyber attack just massively 
increased because of, you know, where basically people's home 
networks became part of our State networks as part of that. 
Really the criticality of these systems became so much more 
important, particularly like our unemployment systems or our 
case management systems, where we use them for contact tracing 
and vaccinations.
    So, you know, the extra effort and impact of--we can 
imagine--in fact we had sent out a special to all employees in 
New Hampshire early in COVID saying don't be the one that 
clicks on a link and takes down our unemployment system.
    I would also have to comment on the multi-factor 
authentication that came up earlier. Many States are 
implementing that. It is a financial challenge for many States, 
but it is absolutely critical, especially for systems that 
are--where administrative access such--those with 
administrative access accounts. It is absolutely critical that 
multi-factor authentication be implemented.
    Chairwoman Clarke. Very well. Thank you very much.
    Ms. Stifel, you mentioned in your testimony that 70 percent 
of ransomware attacks in the fourth quarter of 2020 involved 
the threat to release data, in what some call double extortion 
ransomware. That is a startling change from the traditional 
ransomware practice of just denying access to data or networks.
    What do you think is driving this change, how does this 
additional threat shape victim's behavior, such as their 
willingness to pay a ransom, and how have these threats 
increased the impact that ransomware has on victim 
organizations?
    Ms. Stifel. Thank you, Madam Chairwoman. That is a great 
question.
    I would say there are a number of factors that are 
influencing this shift. The first is that in some cases--I 
think it was in about 20 percent of cases--ransom payments were 
being made, and so the need to--and the fear that private 
information, particularly if it is intellectual property, might 
be hacked and dumped on-line can--incentivized criminals to try 
and take this approach thinking that they are more likely to 
get paid.
    Similarly, the fact that in many cases now organizations 
have back-ups--may not be fully comprehensive, but we heard 
story earlier in this hearing about one school system being 
able to restart from back-ups and the other not. That can also 
frustrate criminals and so they need to pivot to an alternative 
business model to try to continue to fund their malicious 
activities.
    The third I think is really that the ability for criminals 
to--where victims are not making clear that they have been the 
victim of an incident, by dumping the information they are 
demonstrating their prowess, so to speak. So really I think one 
of the things that people need to think about as they are 
working to mitigate and prevent these types of activities is, 
again, the utility of encryption and encrypting data at test 
and in transit so that where files were--an actor gains access 
to the network, they are still limited in their ability to gain 
access to these essential files.
    Chairwoman Clarke. I thank you.
    I have gone over time, so let me now recognize the Ranking 
Member of the subcommittee, the gentleman from New York, Mr. 
Garbarino, for his questions.
    Mr. Garbarino. Thank you, Chairwoman, for the second round. 
I appreciate it.
    Quickly, Ms. Stifel. You mentioned many CRRFs in your 
opening statement, Cyber Response and Recovery Funds, yet the 
ransomware report states that only about one-third of affected 
companies pay the ransom. What would prevent a company that was 
never planning to pay the ransom from applying for free money 
from the Government to rebuild. Does this effectively take away 
the incentive for private sector to modernize and securitize 
their systems if they know the Government will pick up the tab? 
Should there be some sort of cost-sharing arrangement in your 
opinion?
    Ms. Stifel. Thank you, Congressman.
    Yes, the Task Force recommends that not just a blank check 
so to speak be offered to entities that are applying to receive 
assistance through the Cyber Response and Recovery Funds, but 
in fact there being some set of criteria after which they might 
be able to access the funds.
    So in the case of the Task Force, the example was one a 
framework is developed that identifies practices that could be 
undertaken to better prevent ransomware victimization in the 
first place, demonstration of compliance with or the ability to 
meet the suggestions and the framework be one doorway through 
which an organization might access the funds.
    Mr. Garbarino. Thank you very much.
    This is both for General Davis and Ms. Stifel. You both 
participate, you are both co-chairs of the Task Force. I 
believe one of the priority recommendations advocates to know 
your customer. Another requirement is on cryptocurrency 
exchanges. Can each of you expand on that recommendation? If 
there is time, Mr. Krebs, maybe you want to jump in as well.
    Mr. Davis. Thank you, Congressman. I will go ahead and 
start.
    But obviously the recommendation is that what we found from 
the Task Force perspective was that ransomware crimes should be 
more closely regulated and Government should require 
cryptocurrency exchanges with crypto kiosks, the over-the-
counter trading desk, to comply with existing laws. Those were 
the ones including know your customer, anti-money laundering, 
and combatting the financing of terrorism. In our view, those 
are good laws, they are just not effectively and consistently 
implemented in all cases. Great oversight and the ability to 
enforce those we believe would actually put a dent in this 
problem.
    Ms. Stifel. Just a little bit on what John said to you 
highlights the importance of the information that can be 
gathered through these types of requirements. Those cannot only 
facilitate the investigation of the crime itself, but also it 
is preventative measures that law enforcement and others can 
take in trying to again deter the number of ransomware attacks.
    Mr. Garbarino. Mr. Krebs, is there anything additional?
    Mr. Krebs. I think that covers the fair share of it. Again, 
I think what we have to focus on is increased--and I can't 
believe I am saying this right now--but increase the 
information sharing on victim--not personal information, but 
victim wallets to the extent that we can get better fidelity on 
the size and scope of this issue and where the funds are going 
to light up those aggregation points throughout the economy, 
the cryptocurrency economy, that allows us to take further 
directive action against the criminals.
    Mr. Garbarino. I appreciate that. Thank you very much all.
    One just final question for anyone. Are you aware of 
companies doing the right thing? You know, having back-ups, 
doing what I explained before, but it being more expensive to 
do the right thing than actually paying the ransom? Anybody 
have any stories on that?
    Mr. Krebs. So I--you know, just out of personal experience, 
at least in the last several months, we have had a number of 
conversations with companies that have ultimately decided they 
could either rebuild or recover ultimately, somehow not have to 
pay. The reasons for that are going to vary from not wanting to 
contribute and otherwise.
    Mr. Garbarino. OK. Since nobody else has anything else to 
add, I yield back.
    Thank you, Chairwoman.
    Chairwoman Clarke. I thank the Ranking Member.
    The Chair now recognizes for 5 minutes the gentlelady from 
Texas, Ms. Jackson Lee. Ms. Jackson Lee, are you with us? Ms. 
Jackson Lee?
    Well, it appears that she is indisposed. You all have been 
wonderful and giving of your time today----
    Mr. Langevin. Madam Chair? It is Jim Langevin. If it is 
possible to----
    Chairwoman Clarke. Oh, absolutely. I am sorry, I am sorry.
    The gentleman from Rhode Island is recognized now for 5 
minutes, Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair. I appreciate again 
you holding this hearing and the time and the testimony of our 
witnesses.
    So let me go to Ms. Stifel. In your testimony and in the 
Task Force report, you referenced the importance of the FBI 
cyber assistant legal attaches, or ALATs. The Solarium 
Commission, on which I served, also recommended substantially 
increasing these positions to help coordinate international 
cyber criminal investigations. Can you elaborate on why these 
positions are so important from your perspective?
    Ms. Stifel. Thank you, Congressman. As an alum of the 
Department of Justice, I particularly appreciate the question.
    So the ALATs are really the eyes and ears of the law 
enforcement community overseas and they work very closely with 
their host country counterparts.
    So in the first instance they are there to help facilitate 
investigations of criminal activity that has occurred against 
U.S. citizens, but they are also there too as an extension of 
our policy approach to law enforcement activity, including our 
support for the Budapest Convention, otherwise known as the 
Cybercrime Convention. So they are there not only collecting 
evidence, also training local host country staff, but further 
extending the policy approach of ensuring that there are 
administrative, as well as substantive laws on the books that 
criminalize malicious activity and unauthorized access to 
computer networks and the ability to bring these perpetrators 
to justice. So in some cases they need to be working through 
mutual legal assistance activities necessary in order to 
further an investigation.
    Of course they are also providing assistance potentially 
from the U.S. side where U.S. companies may be involved in host 
nation's investigation of an activity.
    But I think it is also crucial to note that we don't have 
as many of these as probably could be most effective for--
particularly for purposes of combatting ransomware. So I would 
encourage additional support for ALATs as the Solarium 
Commission has also recommended.
    Thank you for the question.
    Mr. Langevin. You bet. I like how you phrased that there, 
they are the eyes and ears of law enforcement on the 
international front, if I heard that right. You know, I 
couldn't agree more. Right now I think there are too few of 
them and we really need to have more. So thank you for that.
    I think there are only--people may be surprised to know I 
think there are only 12 of them right now; 12 is not enough and 
we need more.
    Let me go back to General Davis, if you could. We talked in 
the past about the preparation of crime as a service. Very 
disturbing to me, certainly as it is to others, when you look 
at the ransomware ecosystem and business model, what do you 
view as the critical function with the disruption of which 
would cause maximum pressure on the criminals?
    Mr. Davis. Thank you, Congressman Langevin.
    First of all, I would say that once again this is a full 
court press and that happens to be one of the pressure points. 
In looking more deeply at that pressure point, I know the Task 
Force investigated the ability to disrupt the payment process, 
and it was seen as a critical chokepoint, the infrastructure 
associated with the ransomware model and the threat actors 
themselves. I think it takes all 3 of those. There are specific 
recommendations along the line of each of those 3 aspects of 
putting pressure on the act itself, the criminal enterprise.
    I do think that in the notion of going after the 
infrastructure, there is an enormous role that private industry 
can play and has proven to be able to play in certain instances 
that are very current, for example. So I think this notion of a 
National-level Joint Ransomware Task Force, that involves, you 
know, White House-led effort with the appropriate inter-agency 
and the new National Cyber Director in coordination with 
existing organization, like NCIJTF and the JCPO, that is very 
important. But to get after some of these infrastructure-
related disruptions, you are going to need to leverage the hub, 
the private industry hub, that we have also made as a 
recommendation as a part of that overall whole-of-society 
effort.
    Mr. Langevin. Thank you, General.
    Mr. Krebs and Ms. Stifel, the Task Force recommends 
developing target lists of ransomware developers and other 
linchpins of the business model. Are there reasons the 
Government doing this already? Or ways that we could help it 
more effective?
    Mr. Krebs. So I will try to keep this short, but, look, the 
intelligence community, law enforcement community have, just 
like everybody else, a limited set of resources and then a 
separate set of priorities that they have to work against. So I 
think what is needed here is let us elevate ransomware and 
ransomware as a service in the priority list. Now, something is 
going to get bumped down unless we give them more people and 
more money to get through this. But I do think that there is a 
realization in the IC that ransomware sponsored by countries 
like Russia is a priority. We were able to prioritize counter 
ransomware at least from an elections perspective. I think 
there is a broader effort we can do here.
    Mr. Langevin. Thank you.
    Ms. Stifel, anything?
    Ms. Stifel. No, I agree with Chris Krebs.
    Mr. Langevin. OK. Very good.
    I see my time is expired. Madam Chair, thank you for the 
indulgence and I yield back.
    Thanks to our witnesses.
    Chairwoman Clarke. With that, I do thank our witnesses as 
well, General Davis, Ms. Stifel, Mr. Krebs, and Mr. Goulet, for 
your forthright answers today and as well as your indulgence in 
our second round of questioning. I thank our Members for their 
questions.
    The Members of the subcommittee may have additional 
questions for the witnesses and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stand 
adjourned.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
